<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2015

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:33 a.m. in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Shelby, Collins, Murkowski, 
Blunt, Daines, Moran, Durbin, Leahy, Tester, Udall, and Schatz.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENT OF HON. DEBORAH LEE JAMES, SECRETARY


               opening statement of senator thad cochran


    Senator Cochran. The committee will please come to order.
    We welcome everybody to our Subcommittee on Defense 
Appropriations hearing for the fiscal year 2016 Air Force 
budget request.
    We are very pleased to especially welcome the Secretary of 
the Air Force, the Honorable Deborah Lee James; the Air Force 
Chief of Staff, General Mark Welsh III. We appreciate your 
service, and we thank you for the critical role you are 
providing in helping to lead the defense of our country, 
protecting our national security interests.
    The President's fiscal year 2016 budget requests $122 
billion in base funding for the Air Force. This is $13 billion 
more than the current funding level. The request also includes 
nearly $11 billion to support ongoing overseas contingency 
operations. We look forward to hearing your reaction to the 
President's budget (PB) request.
    The committee recognizes the importance of the Air Force, 
and we thank you for your service in these critical and 
important positions of leadership. The Air Force's priorities 
of being able to fight and win a war on terror is appreciated 
and admired, and we are pleased to support those goals. We want 
to be sure that we take care of our airmen and their families 
and be prepared for tomorrow's challenges. We recognize the 
difficulties that recapitalizing an air force can present, an 
air force fleet that has an average age of 27 years. It is our 
role to find the correct balance between the competing 
priorities and interests during these interesting times.
    In our State of Mississippi, we are very proud to host 
training facilities that have been there for a long time and 
have contributed not only to our national security but have 
strengthened the local economies. Air Force families have been 
a part of our State for a long time. We are very proud of that. 
We host bases where Active Duty, Reserve, and Air Guard operate 
and train for a wide range of jobs and activities, from pilots 
to supporting cyber warfare requirements.
    We appreciate all of you serving in the roles you have and 
commend you for the good work and outstanding leadership you 
provide.
    We look forward to working with you through the members of 
this panel and our staff members to review the 2016 
appropriations bill specifically that will enable and authorize 
the United States Air Force to successfully defend our Nation's 
security interests and protect our interests around the world.
    I am very pleased to thank our distinguished ranking 
member, Senator Durbin, for being here and his leadership on 
this committee. I would be glad now to yield to him for any 
opening remarks that he would care to make.


                 statement of senator richard j. durbin


    Senator Durbin. Thanks, Mr. Chairman. I appreciate it very 
much, and I am pleased to be joining you in welcoming Secretary 
James and General Welsh to our hearing to review the Air 
Force's budget request for fiscal year 2016.
    Mr. Chairman, I have found, as I have met with the leaders 
of national defense, that there is one recurring theme and that 
is they are concerned over the possibility of sequestration. 
Time and again, they have told us that if we revert to this 
world of sequestration, we will do it at the expense of 
America's defense and our readiness, and we will literally 
waste precious acquisition dollars with inefficient management 
of procurement programs. I share that concern, and I wanted to 
salute our new colleague on the committee, Senator Schatz, who 
has introduced the Sequestration Relief Act of 2015, which I am 
cosponsoring.
    I ask consent that the remainder of my statement be placed 
in the record so that the witnesses can have a chance to 
testify.
    Senator Cochran. Without objection, it is so ordered.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Mr. Chairman, I am pleased to join you in welcoming Secretary James 
and General Welsh to our hearing to review the Air Force's budget 
request for fiscal year 2016.
    We look forward to your assessment of a number of critical areas in 
the department's budget and the rationale behind your balancing act of 
short-term and long-term objectives. Some of these areas include:
  --the health of our total force, where we must continue to make best 
        use of our Air National Guard and civilian workforce as cost-
        effective alternatives wherever possible;
  --your continued stewardship of major acquisitions programs to guard 
        against waste;
  --progress toward introducing competition into space launch in order 
        to bend the curve on unacceptably high costs and reducing the 
        national security risk of relying on Russian engines; and
  --your investments to advance science and technology research so that 
        the Nation's Air Force may continue to maintain air dominance 
        for the foreseeable future.
    Secretary James, General Welsh, you have also been vocal about your 
concerns with sequestration, particularly the ways it could once again 
harm readiness and waste acquisition dollars through unavoidably 
inefficient management of procurement programs.
    I share your concern and have recently, in partnership with Senator 
Schatz, introduced the Sequestration Relief Act of 2015.
    The Sequestration Relief Act would set higher defense--and non-
defense--spending limits to allow the Federal Government to make 
necessary investments in our Nation's security, prosperity, and health.
    It is important that Congress alleviates some of the budgetary 
pressures that you have felt as Air Force leaders. But Congress must 
also relieve similar pressure on our domestic programs, many of which 
are important priorities for Air Force families. These include medical 
research, reduction in crime, investments in American infrastructure, 
and education.
    Studies have also shown that obesity, health problems, poor 
educational attainment, and criminal histories are dramatically 
shrinking the pool from which the military can recruit. Short-changing 
domestic programs that address these problems may end up harming our 
national security in the long term. I hope Secretary James and General 
Welsh can speak to the importance of having healthy, well-educated 
young Americans who can make this country better, whether they serve in 
uniform, in high-tech jobs, or in our communities.
    Secretary James, General Welsh, we look forward to hearing your 
testimony today.

    Senator Cochran. Madam Secretary, General, we are pleased 
to welcome you to the committee, and if there are other 
Senators who would like to make a statement or put a statement 
in the record, we would be happy to have you do that at this 
time.
    Senator Collins. Put it in the record.
    [The statement follows:]
             Prepared Statement of Senator Susan M. Collins
    Thank you, Chairman Cochran and Ranking Member Durbin, for holding 
this hearing to review the Department of the Air Force's fiscal year 
2016 budget submission. This subcommittee has a number of important 
decisions to make, and I am hopeful that we can work together to 
produce a bipartisan funding bill this year.
    Secretary James and General Welsh, thank you for appearing here 
today and please accept my thanks for your service to our country.
    General Welsh, I especially want to thank you and your wife for 
visiting the Maine Air National Guard's 101st Air Refueling Wing in 
Bangor, Maine, last week. I am sure you saw why we are so proud of the 
job our ``MAINEiacs'' do 24 hours a day, 7 days a week, and why the 
101st can play a vital role in our fight against ISIL.
    Two issues concern me with respect to the Air Force budget 
proposal. First, even without sequestration, the Air Force is at such a 
worrying state of readiness that it will not recover to being fully 
ready to perform full spectrum operations for 8 years (2023). This is 
unacceptable, and I would like to know what additional resources, 
whether through OCO or the base budget, are needed to reduce this 
timeline.
    The second issue of importance to me is the Air Force's 
preparedness to defend comprehensively against cyber-attacks. All the 
planes and bombs and satellites in the world will be ineffective 
against an adversary if they are crippled by a cyber-attack.
    Whether it is satellites, the thousands of lines of software code 
that keep our aircraft in the air, or the critical infrastructure that 
supports the operations of Air Force bases around the world, I would 
like to know whether our senior Air Force leaders can assure us that 
the Air Force has identified and addressed these vulnerabilities so 
that the completion of the Air Force's part of the mission is assured.
    Thank you. I look forward to your testimony this morning.

    Senator Cochran. Madam Secretary, welcome.

              SUMMARY STATEMENT OF HON. DEBORAH LEE JAMES

    Secretary James. Thank you so much, Mr. Chairman and Vice 
Chairman Durbin, other members of the committee. We are very 
pleased to be here this morning. And I am especially pleased to 
be sitting next to this gentleman who is just a phenomenal 
airman and a leader of our Air Force, General Mark Welsh.
    Mr. Chairman, we do have a prepared statement which we 
would ask be included in the record, and then, if I may, I 
would just like to summarize some of our key points.
    Senator Cochran. Without objection, that statement will be 
made a part of the record.
    Secretary James. Thank you, sir.
    [The statement follows:]
           Prepared Statement of Hon. Deborah Lee James and 
                       General Mark A. Welsh, III
                              introduction
    The United States Air Force is the most globally engaged air force 
on the planet. American Airmen are in constant defense of our national 
interests, whether dropping bombs, commanding satellites in space, 
delivering humanitarian relief, or protecting the homeland with an 
array of air, space, and cyberspace capabilities our forefathers could 
never have imagined. Airmen collaborate and train with allies--
expanding and strengthening our collective capabilities--and guarantee 
the global freedom of movement and access that Americans have come to 
expect. Alongside its Sister Services, America's Air Force delivers our 
Nation the power, influence, agility, and global reach no other country 
currently possesses . . . no matter the effort, no matter the odds. Our 
Airmen are warfighters and they bring airpower to bear on behalf of 
America every day.
    But 24 years of continual combat operations, coupled with 
constrained and unstable budgets, has taken its toll. America needs a 
force ready for a spectrum of operations more global and complex than 
ever before. Instead, a relentless operations tempo, with fewer 
resources to fund, coordinate, and execute training and exercises, has 
left a force proficient in only those portions of the mission necessary 
for current operations. This is not the Air Force America expects . . . 
but today, it is the Air Force America owns.
    Today's Air Force is the smallest and oldest it has ever been, even 
while the demand for airpower continues to climb. There is no excess; 
there is no ``bench'' . . . everything is committed. When called into 
action, today's Air Force cannot respond in one corner of the Earth 
without diluting its presence elsewhere. The blanket of American 
airpower covering the globe has thinned; in places, it is nearly 
threadbare. As we have cut our capacity, we have found our capability 
equally diminished--the two qualities are inextricably linked.
    The Nation deserves an Air Force that can outmatch its most 
dangerous enemies at their peak of power--the most demanding 
warfighting scenario, not just the ``low-end fight.'' The President's 
Budget (PB) takes a critical step toward recovering that Air Force, but 
make no mistake: even at PB levels, the Air Force remains stressed to 
do what the Nation asks of us. To truly reverse the erosion of American 
airpower requires sustained commitment, stability, and the decision-
space to invest each taxpayer dollar where it can best deliver the most 
combat power.
    Without bold leadership today--difficult decisions and a commitment 
to air, space, and cyberspace investment--America's airpower advantage 
is increasingly at risk.
                        a globally engaged force
    At the Nation's call, American Airmen leap to defend her interests. 
They respond at all hours, on any day, anywhere in the world, and they 
do it whether the requirement has been planned for or not. After all, 
enemies (and disasters) rarely strike when expected.
    On the eve of 2014, the Nation--and the Air Force--planned for a 
relatively quiet year. We expected to draw down combat forces in 
Afghanistan, and have an opportunity to reset and reconstitute our 
forces.
    Instead, the Ukraine and a resurgent Russia happened. Ebola 
happened. The Islamic State happened. Airmen flew 19,959 offensive 
sorties, releasing 8,249 weapons \1\ in support of U.S. Central Command 
alone. Air Force tankers offloaded 172 million gallons of fuel to Joint 
and coalition air forces, and Airmen flew 79,445 airlift missions in 
operations on every continent.\2\ We kept watch over our enemies, 
collecting and analyzing over 18 million images and 1.6 million hours 
of full motion video . . . and we evacuated 6,075 wounded Soldiers, 
Sailors, Airmen, Marines, and civilians from the battle space. Instead 
of slowing down, our force sped up.
---------------------------------------------------------------------------
    \1\ These include Close Air Support, Escort, and Interdiction 
sorties. Data from AFCENT Airpower Summary.
    \2\ Tanker Airlift Control Center Office of Public Affairs.
---------------------------------------------------------------------------
    The Air Force was equally busy at home, providing capability most 
Americans never have to think about. Airmen launched nine national 
security space missions--bolstering GPS, weather, and Space Situational 
Awareness capabilities to benefit military and civilian users alike. 
They engaged with allies to build America's space partnerships; and 
worked to qualify potential new launch providers to increase 
competition, reduce costs, and assure American access to space in the 
future. And Airmen began the long, critical work of revitalizing two of 
the three legs of our Nation's nuclear triad, gathering over 300 
recommendations from the field on how to improve Air Force nuclear 
culture . . . and then implemented those ideas, to the tune of $50 
million in fiscal year 2014 and a planned $154 million in fiscal year 
2015.
    Airmen provide access, overwatch, protection, and staying power for 
American and coalition forces the world over. They degrade adversary 
capabilities, and re-affirm every day that America can project power 
anywhere in the world, at the time and place of our choosing. That 
power--that presence, at home and abroad--is among the strongest 
deterrents confronting the Nation's would-be enemies . . . and 
protecting our National interests.
                capacity and capability: a dual problem
    Americans have invested in airpower for well over 60 years to 
ensure the fight is never fair. But today--after many years of 
continual operations and a few fiscal upheavals--the Nation is at a 
crossroads, with a fundamental disconnect between its airpower 
expectations and its airpower capability.
    There was a time when the Air Force could trade some capacity in 
order to retain capability. But we have reached the point where the two 
are inextricable; lose any more capacity, and the capability will cease 
to exist.
    The Service's intelligence, surveillance, and reconnaissance (ISR) 
force is a sobering example of this critical nexus. In today's 
warfighting environment there is nearly infinite appetite for Air Force 
ISR \3\--we simply do not have the capacity to fulfill it. To meet as 
much of the demand as possible, Airmen work 10- to 12-hour shifts on a 
``7-on, 1-off'' pattern, flying over 900 hours a year--a rate that can 
accumulate a career's worth of flying hours in a single assignment. 
These are combat shifts, physically, mentally, and emotionally taxing . 
. . and to get it done, they are sometimes diverted from training that 
allows them to improve, advance, and build a professional military 
career. When such Airmen are faced with the decision to separate or 
continue to serve, it is difficult to convince them that staying is in 
their best interests. We are losing them at a rate faster than we can 
replace them.
---------------------------------------------------------------------------
    \3\ A return to sequestration would result in 50 percent of the 
high-altitude ISR missions being flown today no longer being available. 
Commanders would lose 30 percent of their ability to collect 
intelligence and targeting data against moving vehicles on the 
battlefield.
---------------------------------------------------------------------------
    At some point, no level of effort will cover the capacity gap 
created by continual worldwide operations and dwindling, uncertain 
budgets. The capability itself will fail.
    The fleet offers another case in point. Today's Air Force is both 
the smallest and oldest it has ever been. Since Operation DESERT STORM 
in 1991, the Air Force cut its total aircraft inventory from 8,600 to 
5,452. During that same time period, we cut Active, Guard, Reserve, and 
civilian Airmen from 946,000 to little more than 662,000 (just 313,000 
on active duty). The average age of Air Force aircraft is 27 years, 
with many fleets substantially older.
    The newest B-52 bomber is 53 years old. In at least one Air Force 
family, three generations of Airmen have piloted the Stratofortress, in 
combat engagements from Vietnam to ENDURING FREEDOM (see boxed text).

    ----------------------------------------------------------------

                    three generations of b-52 airmen
    Captain Daniel Welch graduated from the Air Force Academy in 2008, 
and began flying the B-52 in March of 2010. His father, Lieutenant 
Colonel Don Welch, was assigned to Guam in the early 1980's, a B-52 
flight crew member during the Cold War. And Daniel's grandfather, 
Colonel Don Sprague, flew ``the mighty B-52'' in combat missions in 
Vietnam, earning the Distinguished Flying Cross for his service.
    The B-52 that Daniel's grandfather flew was designed in the 1950s 
for its strategic strike capability, deterring direct aggression from 
our enemies. It was capable and it was credible. Under current 
recapitalization plans, the Air Force will try to keep this venerable 
airplane flying until at least 2040 . . . that is enough years to let a 
fourth generation of the Sprague-Welch family grow, graduate, and fly 
the B-52 as well. But how capable, and by extension how credible, will 
a 90-year-old bomber be in the world 25 years from today?
    The Nation broadly invested in capacity to cover the globe decades 
ago . . . but if we do not have capacity with the right capability to 
meet today's needs, what is perceived as credible capability is merely 
an illusion.

    ----------------------------------------------------------------

    By automobile standards, 12 fleets of Air Force aircraft are 
authorized antique license plates in the state of Virginia. The Air 
Force can (and does) continue to patch these older platforms up and fly 
them in combat. But after extending their service life time and time 
again, each airframe reaches the point where it cannot be ``patched 
up'' anymore. It must be replaced or it fails.
    With aging aircraft and stressed fleets, today's capacity, as small 
as it is, is something of an illusion. The numbers are there--barely--
but the capability to command global influence is tenuous. What was, in 
earlier times, a blanket of airpower covering the globe, has been worn 
to mere threads.
                        policy and purse strings
    The world continues to change at an unprecedented pace and 
operational requirements continue unabated. The demands for global 
engagement is challenging under any circumstance . . . but when 
combined with an uncertain budget environment, it drives the Air 
Force--indeed, all Services--to make incredibly difficult choices, 
pitting vital requirement against vital requirement.
    When budgets contract and budgetary policy is continually 
postponed, or written in a way that limits Service solutions to budget 
problems, decision-space shrinks, and already difficult budget choices 
become nearly impossible.
    In fiscal year 2012, when the Air Force originally forecast its 
requirements to meet the Defense Strategic Guidance, the Service 
planned an fiscal year 2016 topline of $134 billion. Today--as enacted 
in fiscal year 2015, and so requested in the fiscal year 2016 PB--that 
topline has decreased to $122 billion. In aggregate, the loss across 
those 5 years is $64 billion (see chart I below).
    [The chart follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    

                        Chart I: Lost Capability

    To put this into perspective, if the Air Force shut off all 
utilities--turned off the lights, the heating and air conditioning, the 
water supply--at all our major installations for 12 years \4\ . . . or 
if it quit flying for 20 months--did not burn any jet fuel at all for 
nearly 2 years . . . it would save only $12 billion. Enough to buy back 
1 year of sequestered funds. Money matters; the lost capability is 
real; and the impact is going to be significant.
---------------------------------------------------------------------------
    \4\ This number reflects the cost of utilities only at U.S. Air 
Force installations--it does not reflect installations investments writ 
large (and thus does not portray in any way the savings which could be 
associated with base realignment and closure).
---------------------------------------------------------------------------
    In addition, both budget uncertainty and legislative programming 
restrictions have left the Air Force with very limited decision-space 
over the past 3 years. Tightly constrained on aircraft divestiture and 
denied Base Realignment and Closure, leaves the Service with only a few 
accounts to yield savings from quickly and cleanly, without violating 
``must pay'' requirements: readiness, people, and modernization. From 
these, the Air Force worked hard to identify the least catastrophic 
choices it could.
    The Air Force took risk in infrastructure. Our investment in 
maintenance and repair--including restoration, modernization, 
sustainment, and new construction to recapitalize Air Force facilities 
and infrastructure--is just 1.9 percent of the Service's plant 
replacement value. Private industry standard is between 6 and 8 percent 
investment.\5\
---------------------------------------------------------------------------
    \5\  . . . and National Research Council studies indicate that an 
investment between two and 4 percent of PRV is warranted to avoid risk 
of accelerated deterioration and infrastructure failure.
---------------------------------------------------------------------------
    Unable to cut airframes we believe we need to divest or to reduce 
excess base capacity; the Service has cut personnel--taking risk in 
human capital. Since 2001, even as the Nation fought in Afghanistan and 
Iraq, Air Force uniformed end-strength dropped by 44,000 Airmen.\6\ We 
simply cannot get any smaller or we risk being too small to succeed.
---------------------------------------------------------------------------
    \6\ Fiscal year 2011-2014 Active, Guard, and Reserve.
---------------------------------------------------------------------------
    We have also been forced to cut into some of the programs that keep 
Airmen and airpower a step ahead of the enemy at all times. In 2013, 
for example, an entire Weapons School class--which produces the world's 
best tactical and operational airpower experts--was cancelled.
    Risk and tough choices are part of every business. The problem, for 
the Air Force, is that failure is never an option. Airmen will fix it, 
patch it, make do, and work until they drop to cover shortfalls. But 
asking it of them, year in and year out, risks unbearable strain on a 
force heavily engaged around the globe.
                           doing what we can
    Recognizing that budget uncertainty--and a need for fiscal 
restraint--may be here to stay, the Air Force has extended its 
institutional gaze out 30 years to synchronize budget and acquisition 
decisions with strategy. To guide this effort, in 2014 the Service 
published America's Air Force: A Call to the Future,\7\ a ground-
breaking new strategic framework. This framework calls for strategic 
agility to confront the rapidly-changing global environment, and--in 
conjunction with the upcoming Air Force Strategic Master Plan--will 
provide guideposts and long-range resourcing vectors with which to make 
the difficult tradeoffs required in years to come.
---------------------------------------------------------------------------
    \7\ http://airman.dodlive.mil/files/2014/07/
AF_30_Year_Strategy_2.pdf.
---------------------------------------------------------------------------
    In the more immediate-term, the Air Force has realized value 
through its ``Every Dollar Counts'' (EDC) campaign. At the heart of EDC 
is the Secretary of the Air Force's challenge to every Airman to take 
ownership of the processes they touch and to look for better ways to do 
business. EDC initiatives run the gamut, from soliciting grassroots 
savings ideas to overhauling Air Force acquisition practices. Efforts 
within the campaign have reduced energy costs by approximately $1 
billion, and identified another $1.3 billion in potential savings 
through Better Buying Power practices and the Air Force's partner 
initiative, Bending the Cost Curve. We project another $35.4 million in 
savings proposed by Airmen, and have found opportunities to save $190 
million over the next 5 years by analyzing War Readiness Engine 
requirements. The savings are already planned for reinvestment in 
readiness, as well as to modernize equipment and infrastructure.
    Budgetary constraints also spurred the Air Force to re-evaluate the 
way it does business with its installations' host communities, and seek 
alternatives to the status quo. The Air Force Community Partnerships 
Initiative makes unprecedented use of public-public and public-private 
(P4) partnerships, leveraging the existing resources and capabilities 
of installations, state and local communities, and commercial entities 
to achieve mutual value and benefit for all. There are now 47 
installations in the Air Force Partnership Program who identified more 
than 1,000 initiatives across the spectrum of installation services and 
mission support . . . and many of these initiatives are developing 
further with potential application Air Force-wide.
    Additionally, the Air Force unequivocally relies on three strong 
components--Active, Guard, and Reserve--to sustain the force required 
to meet strategic uncertainty, fiscal constraint, and rapidly evolving 
threats head-on. The Air Force is absolutely committed to leveraging 
the distinct and complementary characteristics of its Total Force more 
effectively . . . and to do that, Airmen must be postured to operate 
cohesively and seamlessly as one team. Over the last year, dialogue 
with stakeholders provided valuable perspective--and mutual 
understanding--about the necessary size and shape of the future Air 
Force. The Service spent 2014 thoroughly analyzing 80 percent of its 
mission areas and platforms, taking a close look at component balance. 
Over the course of the next year, the Air Force will continue 
evaluating the remaining 20 percent of the mission areas . . . and 
continue ongoing work to break down organizational, policy, and 
cultural barriers to seamless operations.
    The Air Force is a committed steward of America's resources, 
saving--or avoiding costs--to the tune of billions of dollars through 
the ingenuity of Airmen. Yet even those billions fall far short of 
making up the losses of the past 3 years. We need a stable funding 
profile, and support for the tough fiscal decisions required, if we are 
to meet the complex global challenges of the coming years.
                   an investment in global influence
    America is an airpower nation; we have enjoyed unrivaled success in 
the air for the past 70 years. But future success is not a birthright, 
and air and space superiority is not an entitlement. It must be earned. 
Without it, American influence diminishes and the U.S. military will be 
forced to radically change how it goes to war. Americans will be put in 
danger, and our leaders' options will be markedly limited. Our 
adversaries know this and are taking steps to tip the balance in their 
favor.
    We cannot let this happen. We must invest in the force required 
today and invest in the force we will need tomorrow.
    The fiscal year 2016 PB request is the result of difficult, 
purposeful, strategy-based resourcing decisions made to meet 
obligations set in the Defense Strategic Guidance. It aligns with 
Department of Defense and Air Force 30-year strategies; continues to 
regain ground in our ability to wage full-spectrum operations; 
maximizes the contributions of the Total Force; reinforces investments 
in nuclear deterrence and space control operations; emphasizes global, 
long-range and non-permissive capabilities; and focuses on unique 
capabilities the Air Force provides to the Joint fight. It funds our 
greatest asset--Airmen--by halting the active duty manpower drawdown 
and reinvesting pay and compensation savings in Airmen's quality-of-
life programs. And it preserves the Air Force's top three acquisition 
priorities: F-35; KC-46; and the long-range strike bomber.
    The fiscal year 2016 PB request also reflects changes in the global 
landscape, buying back combat capabilities in areas where the Air Force 
accepted risk in the fiscal year 2015 PB--the E-8, JSTARS, and F-15C. 
U-2 and E-3 AWACS divestment is re-phased to fiscal year 2019, so we 
can continue to operate those platforms and meet combatant commanders' 
most urgent needs. And we've increased funding for the nuclear 
enterprise, space, cyber, ISR, and command and control improvements, 
investing in the Nation's strategic deterrence and high demand airpower 
assets.
    This budget cannot stand alone--it must serve as a point of 
departure for future years' stable, committed investment in global 
airpower for America. A return to sequestration-level funding will 
devastate readiness and modernization; it will force the Air Force to 
depart from a long-term, strategic planning framework in favor of one 
that triages only those things absolutely required in the short-term. 
It will reverse incremental progress made over the past 2 years in the 
recovery from fiscal year 2013's sequestration-level funding and will 
make it impossible to meet current operational requirements or execute 
the Defense Strategic Guidance. Under a sequestration-level budget, we 
will be forced to recommend divesting critical airpower capabilities--
like the KC-10 and U-2 fleets. Overdue investments in the nuclear 
enterprise will be reduced and technologies vital to future capability 
and the American industrial base--like the promising Adaptive Engine 
Program--will be halted.
                               conclusion
    The United States Air Force is the world's best. American Airmen 
are warfighters. The air, space, and cyberspace capabilities they bring 
to bear strike fear in the hearts of our enemies. If you are a threat, 
the Air Force can see you; it can reach you; and it can strike you. We 
must keep it that way.
    As Airmen continue to support and defend America's interests around 
the globe--engaging in active combat and operational missions 
worldwide--the Nation must acknowledge the serious disconnect between 
the Air Force it expects, the Air Force it has today, and the Air Force 
it is funding for the future. Today's Air Force is the smallest and 
oldest it has ever been . . . and a high operational tempo, paired with 
a constrained and uncertain budget environment, only accelerates this 
trend. The Nation must invest in new technologies, in training, 
infrastructure, and personnel, if it intends to continue operating as a 
global superpower.
    The fiscal year 2016 PB request preserves the minimum requirement 
to meet current strategy. But even at the PB level, the Air Force 
remains stressed and shortfalls exist. Reversion to sequestration-level 
funding will carry great risk for American Airmen, and for America 
itself.
    The fiscal year 2016 President's budget request is an investment in 
a force we hope the Nation will never have to use. But if the 
turbulent--and largely unexpected--global developments of 2014 prove 
anything, they prove this: America's Air Force must be ready to engage 
anytime, anywhere, and across the full spectrum of warfare. America 
expects it, combatant commanders require it, and our Airmen deserve it.

    Secretary James. When I testified before all of you last 
year and I was a brand new Secretary of the Air Force, I 
outlined my three priorities, and they have not changed over 
the course of this past year. The three priorities are: number 
one, taking care of people; number two, striking the right 
balance between the readiness of today and modernizing--that 
means our readiness for tomorrow; and number three, making 
every dollar count. That is to say, we get that the taxpayer 
dollar is precious and we cannot afford to waste a single 
dollar of it. So make every dollar count is one of the top 
three priorities.
    Now, speaking personally for just a moment, what has 
changed for me over the last year is that now I have had, under 
my belt, quite a bit of traveling that I have done to see our 
Air Force in action. I visited 60 bases in 28 States and 
territories, as well as I have been overseas to 12 different 
foreign countries in the past year. And throughout each of 
these visits, I have listened very hard to our airmen, to our 
leaders on the ground, as well as to the rank and file airmen 
all around the country and all around the world. And I will 
tell you the number one message that they have told me is that 
the downsizing that we have been going through in the United 
States Air Force has been extremely difficult for them, 
especially the uncertainty surrounding that downsizing.
    Today, as a matter of fact, we are the smallest Air Force 
that we have ever been since our inception in the year 1947, 
and this is at a time when the demand for our Air Force 
services is absolutely going through the roof. So OPSTEMPO 
(operations tempo) is extremely high.
    Just as you said, Mr. Chairman, we are also the oldest Air 
Force that we have been since our inception in terms of the age 
of our platforms. So on average, our aircraft are 27 years old, 
and there are many fleets, of course, which are substantially 
older than that. And at this time, more than half of our combat 
air forces are not sufficiently ready for a high-end fight--a 
high-end fight meaning one where people are deliberately trying 
to interfere with you, shoot you down, and so forth. So we are 
concerned about half of our combat air forces not being 
sufficiently ready.
    Yet, as we sit here this morning, nonetheless our people 
are pulling it together and they are providing two-thirds of 
our nuclear deterrent. They are performing very important ISR 
(intelligence, surveillance, and reconnaissance) and strike 
missions in Iraq and Syria in the fight against ISIL (Islamic 
State of Iraq and the Levant). They are flying mobility 
missions in the Pacific and reassuring our European allies, as 
well as doing a variety of other missions to guard our 
homeland.
    So all of these missions are critical to our Nation's 
defense. Our airmen are performing them admirably, but with 
that said, it is a force under strain. We are a force under 
strain. We are working to meet the combatant commanders' most 
urgent needs, but a budget trajectory that results in 
sequestration will not allow us to sustain this pace. We will 
either break or we will not be able to execute the Defense 
Strategic Guidance if we are returned to sequestration.
    Now, we have said many times over the past year that 
sequestration would damage our national security. So rather 
than living with those sequestration levels, we are coming in, 
as you noted, Mr. Chairman, with a budget figure for fiscal 
year 2016 which is substantially closer to what we need to run 
the Air Force. And for the Air Force, as you mentioned, this is 
billions of dollars more than what sequestration would give us, 
but it represents the difference between the Air Force that our 
combatant commanders need to get their jobs done around the 
world and the one that our Nation expects vice the type of an 
Air Force that we would be forced to live with under 
sequestration, which means we cannot meet the defense strategy.
    Even with this higher figure, Mr. Chairman, under our 
President's budget proposal, we still had to make some tough 
choices, and I will get into those in a moment or two.

                          AIR FORCE PRIORITIES

    Now, let us go to the priorities. Taking care of people is, 
as I said, my number one priority. And I have become convinced 
that the downsizing must stop. As a matter of fact, I believe--
and so does General Welsh--we need to upsize modestly. So what 
we are looking for is a total force end strength that is 
Active, Guard, and Reserve of 492,000, and that is about a 
6,600 increase, some for the Active Duty, some for the Guard, 
and some for the Reserve. Again, this is what we need to 
execute our defense strategy. It would also help alleviate some 
of the operational strain, the constant deployments that we 
have been facing. It would bolster our nuclear enterprise where 
we have directed additional resources to go in that direction. 
It would increase the number of cyber teams that we are trying 
to build in our Air Force, and it would shore up certain career 
fields where we are currently undermanned. And the one that 
comes to mind on that is maintenance. So all of these things 
that 6,600 end strength would allow us to do.
    By the way, for the Guard and Reserve, this budget will 
allow us to buy back F-15Cs for our Air Guard units and will 
make them active associations. We will reestablish a classic 
association with the Global Hawk at Beale Air Force Base, 
California. We will be able to increase the use of our Guard 
and Reserve in our space missions, and we will also grow the 
Reserves in cyber.
    As you know, we owe you a report on the National Commission 
on the Future Structure of the Air Force by March 4. So you 
will get the full laydown of all that we are doing to increase 
integration, the continuum of service, and utilization of our 
Guard and Reserve.
    A few more things on people: We are expanding services in 
the important area of sexual assault prevention and response, 
support for child care, fitness centers. We are keeping our 
educational benefits strong for our airmen. There are 
infrastructure projects to benefit them, and a 1.3-percent pay 
raise for both our military and our civilian airmen.
    Now, turning to readiness for a moment, that is the second 
priority, get the readiness and modernization balance 
correctly. So we need to rectify the readiness problems that I 
told you about earlier, and it is going to take time to do 
that, but we need to get going with it now just as we have been 
building back the last year or so. So we are going to fully 
fund flying hours to the maximum executable level, invest in 
weapons sustainment, and ensure some of our combat exercises 
like Red and Green Flag, that they remain strong.
    General Welsh in particular--we both, but particularly 
General Welsh consulted closely with our combatant commanders 
as we built this budget, and in view of the additional dollars 
that we received, as well as the fact that the world 
circumstances have changed, we are going to be meeting the 
combatant commanders' most urgent needs in this budget, 
including support for 60 steady state ISR patrols, extending 
the life of the U-2 and the AWACS (Airborne Warning and Control 
System) programs as a couple of examples. So what they want is 
ISR.
    We are also supporting important space programs, including 
additional funding for the nuclear enterprise, some of which I 
have already mentioned.
    Now, when it comes to modernization, number one for us is 
the nuclear, as I said. So we are developing the Minuteman 3 
ICBM (intercontinental ballistic missile) follow-on, 
accelerating the long-range standoff weapon, as well as a 
number of other investments, plus the importance of space, 
including investments in space situational awareness and GPS 
(Global Positioning System) anti-jamming capability.
    You are aware we have three major programs: the Joint 
Strike Fighter, the KC-46, the long-range strike bomber. They 
all will remain on track under our budget.
    And that leads me now to my third priority, which is making 
every dollar count. As I said, that is very important one, and 
we are doing a number of efforts in this direction. We are 
driving toward auditability of our books and we are getting 
there. We are taking a 20-percent headquarters reduction. This 
includes civilian positions, contractor positions, and other 
reductions to get us there from here and we are doing it 
aggressively. We are also soliciting innovative and cost-saving 
ideas from our airmen, and then we are implementing at least 
some of those to gain us savings. And of course, energy is a 
big picture in terms of how we hope to make savings as well.
    So there is a lot of good in this budget, but here comes 
the part that still was difficult decisions. We are, once 
again, proposing to retire the A-10 aircraft over time, slowing 
the growth in military compensation, and we are asking, once 
again, for an authority to do an additional round of base 
closures. And we realize none of this is popular and it is all 
hard, but if sequestration comes back, believe me, the choices 
will be all the more dire. As I said, we will not be able to do 
the defense strategy, and other very important systems would 
perhaps have to be shelved, for example, the KC-10 refueler 
fleet. We would have to cut total force flying hours, weapons 
systems sustainment. A number of readiness areas would suffer. 
Our F-35 procurement would have to be reduced by about 14, and 
our program that I just told you about for ISR, which is the 
number one thing our combatant commanders want more of--that 
would have to go down as well. So you see sequestration 
threatens everything, and I am just sure we can do better and I 
hope that we will.
    So in conclusion, Mr. Chairman, I can confidently tell you 
and the other members, as well as the American people who may 
be listening today, that your United States Air Force is 
unquestionably the best on the planet, but we are strained. And 
we are the best on the planet because our men and women who 
execute the mission each and every day are doing the very best 
job possible, but we must not take this for granted. We cannot 
let our edge slip away. Sequestration--I say again, it must be 
lifted permanently, and I ask you, please, it must be lifted 
for the entirety of Government and I would say particularly on 
behalf of my colleagues that we work with very closely at the 
State Department and DHS (Department of Homeland Security)--
these are very, very close partners for us in our overall 
national security and homeland security profile.
    I look forward to your questions but would now yield to 
General Welsh.
    Senator Cochran. Thank you, Madam Secretary, for your 
statement. We appreciate your good efforts to present the 
overview of the budget request to the committee.
    I think at this time we will yield to and recognize General 
Welsh for any comments he would like to make.
STATEMENT OF GENERAL MARK A. WELSH, III, CHIEF OF STAFF
    General Welsh. Thank you, Mr. Chairman, Vice Chairman 
Durbin, members of the committee. It is always an honor to be 
here with you. Thank you for taking your time to do this.
    It is also great to be here with the boss. She has proven 
to be a very passionate advocate for our Air Force, for its 
airmen, and their families, and all of us appreciate that.
    My pride in our Air Force and the airmen who give it life 
has not changed since last time I saw you. A lot of other 
things have with the world and with the Air Force. The boss 
mentioned this getting smaller portion. Let me just give you 
one illustration because I think it might help you understand 
the issues that we are facing.
    When we deployed to Operation Desert Storm in 1990, we had 
188 fighter squadrons in our Air Force. This budget will take 
us to 49. The bottom line of that is that there is just no 
bench left. There is no excess capacity. Forty-nine equals our 
requirement for responding to a major conflict within 120 days. 
Now, we had 511,000 people in 1990 when we went to that first 
Gulf War. We have 200,000 fewer airmen today. We have been on a 
relatively precipitous decline in the last 25 years. And the 
bench is gone. And so today more than ever, we need a fully 
capable, fully ready force. We just cannot continue to cut 
force structure in order to pay the cost of readiness and 
modernization or we will risk becoming too small to succeed.
    We also have a broader readiness issue than the one the 
Secretary mentioned, the short near-term unit and individual 
readiness problem. The broader problem is a lack of investment 
in infrastructure over time that produces combat capability. 
Things like training ranges, test ranges, simulation 
infrastructure, space launch facilities, nuclear 
infrastructure, even educational and training infrastructure 
have all been intentionally underfunded for the last 15 years 
in order to focus spending on individual and unit readiness. 
That bill is now due. And this budget request begins the 
persistent, long-term investment that will recover this 
mission-critical infrastructure.
    I would also like to tell you that smaller Air Force is 
younger and fresher than it has ever been, but that would not 
be true either. Our smaller aircraft fleet is also older than 
it has ever been. You heard about the average age, but let me 
give you a couple of specifics. If we had flown the venerable 
World War II B-17 Flying Fortress in bombing missions over 
Baghdad in the first Gulf War, it would have been younger than 
the B-52, the KC-135, and the U-2 are today. And the idea of 
using the B-17 in the first Gulf War seems ludicrous to us now, 
but that is the age of our fleets. We have 12 fleets of 
aircraft that qualify for antique license plates here in the 
State of Virginia. We have four fleets of aircraft that could 
join AARP today.
    We have to modernize our Air Force, and we want to work 
with the Congress to do so. And I know that you want to help us 
figure out how to do that. It will not be easy, and it will 
require accepting prudent risks in some operational mission 
areas for some period of time in order to get this done. But 
the option of not modernizing really is not an option at all. 
Air forces that fall behind the technology curve fail, and 
joint forces without the full breadth of air space and cyber 
capabilities that modern air power brings will lose.
    Speaking of winning and losing, if we remain at BCA (Budget 
Control Act) funding levels, the Air Force will no longer be 
able to meet the operational requirements of the Defense 
Strategic Guidance. Our short-term readiness recovery will 
stall. Our long-term infrastructure investment that we are 
trying to start will remain a dream. We will be forced to 
recommend the dramatic fleet reductions that the Secretary 
mentioned, and our modernization programs will be delayed 
again, allowing our adversaries to further close the capability 
gap. The casualties will be Air Force readiness and capability 
well into the future.
    So we need your help to be ready for today's fight and 
still able to win in 2025 and beyond. I think our airmen 
deserve it. Our joint team needs it, and I believe our Nation 
still expects it.
    Finally, I would like to add my personal thanks to every 
member of this committee for your unwavering support of the Air 
Force, for our airmen, and for our families. You have made a 
huge difference to our service over time. Thank you for that.
    And we welcome your questions.
    Senator Cochran. Thank you very much, General. We 
appreciate your cooperation with our committee.
    I have questions that are broad, general overview questions 
relating to the budget and also some parochial interests that 
we have in my State of Mississippi.
    We have a number of Senators who have joined us for this 
hearing today, and I am going to proceed in order of seniority, 
alternating between the Democratic side and the Republican 
side, and recognize other Senators for any questions they may 
have to make to put to our distinguished panel. We thank you 
very much for your cooperation with our committee.
    Senator Durbin.
    Senator Durbin. Mr. Chairman, thank you very much.
    I had an opportunity to meet with Secretary James and 
General Welsh prior to this hearing, and one of the issues that 
was raised by Secretary James was raised again this morning and 
that was the strength of the Air Force, the number of people 
serving in that branch of our service. And I asked a question 
which I promised to follow up on today about one aspect of 
those who are serving the Air Force mission.
    I served on the Simpson-Bowles Commission, and we used to 
ask witnesses from the Department of Defense (DOD) a very 
simple question. How many contractors does the DOD pay for? 
They could not answer the question.
    A few years ago on this subcommittee, then-Comptroller Bob 
Hale agreed with my assertion that the average contractor 
employee costs two to three times more than the average 
civilian employee doing similar work.
    In the context of shrinking budgets, there are obviously 
savings that could be made here, but if you cannot measure it, 
you cannot manage it and you cannot save it. So in 2008, 
Congress required DOD to start counting contractors and to keep 
an inventory of contracted services. In 2011, Congress required 
DOD to use that data in decisionmaking.
    In November 2014, the GAO (Government Accountability 
Office) reviewed DOD's relatively new system to inventory 
contractors and contract services. They found a mixed track 
record, plenty of holes. DOD has yet to establish one single 
status system for this process. So, different reports from 
different systems and services just do not make much sense. It 
found that the Air Force did not verify the accuracy of the 
data that they submitted, and the Army has omitted 25 percent 
of the required information. GAO also found that DOD has lax 
oversight when it comes to these contractors.
    Here is the bottom line, Madam Secretary, obviously. If we 
are worried about expanding the number of men and women serving 
in our Air Force in uniform and in civilian capacity, we have 
to ask some basic questions about those who are serving through 
contract. Taxpayers are paying for them as well. How many 
contractors has the Air Force cut in the last 5 years? How many 
contract positions have you converted to civilian slots, given 
the cost effectiveness as we have been told? In light of the 
GAO report, how is the Air Force improving its compliance with 
the inventory system and using it to reduce dependence on 
contractors?
    Secretary James. Senator Durbin, let me try to at least 
answer some of those questions.
    First of all, I want to acknowledge right up front that I 
think you are right, that we do not have a good enough handle 
on all of these things, but we are trying to do better. And 
this is part of what I called my third priority, which is make 
every dollar count and become efficient in all of these 
different ways.

       HEADQUARTERS REVIEW--STAFF AUGMENTATION TYPES OF CONTRACTS

    So as part of ``make every dollar count,'' let me also 
say--and this is relatively new--we in the Air Force are doing 
something that we are calling ``contracts court.'' So that is 
to say, particularly starting at the headquarters level, we are 
insisting that each of our headquarters elements review each of 
their contracts that they believe they need to continue going 
forward--and this is particularly true of the staff 
augmentation types of contracts--and come up and justify at a 
higher level why they really need to continue that. So we are 
ratcheting it up and making the justifications come up to a 
much higher level to try to weed out ``Can we do without some 
of these support contracts''? So that is one thing I wanted to 
report which is relatively new.
    Now, in terms of some recent progress--and again, I am 
saying ``progress''--it is not good enough, but we have reduced 
our service contract workforce by about $7 billion in 
obligations and 30,000 contractor FTE's over a several year 
period. So again, I am not saying that is good enough, but it 
is progress in the right direction.
    Lastly, I will say that back to when I was in Government in 
the 1990s, the reverse used to be the sort of idea, meaning 
contracting out back in the 1990s was viewed as a much less 
expensive way to go. That was sort of the conventional wisdom, 
I would say.
    Senator Durbin. In the world of snowflake memos.
    Secretary James. And we had quite a conversion rate at that 
point. And some of the decrement in our uniformed I think also 
was of the belief that we could contract more things out. It 
was one of the factors that has led to what has become a 20-
year downsizing.
    Now, the pendulum, of course, has been swinging back and we 
are bringing more of that work into the civilian as well as 
into the Active, Guard, and Reserve workforce. But my point is 
the number of contractors has grown over time because that was 
the conventional wisdom at the time, and now we are going 
through a bit of self-correction.
    Finally, I just want to say I do not want to appear that I 
am anti-contractor because Lord knows they are doing some 
phenomenal work for us, and we cannot get a lot of our mission 
areas done without them. So we are very dependent upon our 
industry partners in a good way.
    But with that said, we are trying to scrub every last one, 
and I will tell you we are making progress. It is not good 
enough. We got to keep on it.
    Senator Durbin. Nor do I want to appear to be anti-
contractor. There are some things that only they can do and 
they can do better, and we want to make sure we are safe and 
use contractors where they are important. But that explains to 
some extent why your initial observation about the lack of 
personnel in the Air Force reflects a decision made 20 years 
ago played out through contractors, and now we have to make a 
new assessment.
    I also mentioned to you--and I will not dwell on it--my 
time is up. I think what you have suggested also calls for a 
greater role by the Air Guard and Reserve to serve important 
missions which they have proved over and over again they are 
capable of.
    Thank you very much.
    Secretary James. Thank you.
    Senator Cochran. I said I was going to recognize Senators 
in the order in which they arrived. And I have Collins and 
Shelby here, but I am not sure which one got here first. 
Senator Collins.
    Senator Collins. I know enough to defer to Senator Shelby 
on this issue regardless of who got here first.
    Senator Cochran. Senator Shelby.
    Senator Shelby. I thank both of you.
    General Welsh, I will direct this to you. Section 1608 of 
the 2015 National Defense Authorization Act (NDAA) sets 2019 as 
the cutoff date for using Russian rocket engines for national 
security launches unless those engines were acquired or under 
contract before February 1, 2014. It is my understanding that 
the Office of the Secretary of Defense legal counsel has 
suggested that it may extend interpretation of section 1608 to 
include, under the NDAA restrictions, a 29-engine subcontract 
that was executed on November 14, 2012, way before the cutoff 
date. I hope this is not going to be the interpretation because 
I think it would change the intent of Congress, and I think it 
will unnecessarily cost taxpayers hundreds of millions of 
dollars and may ultimately harm future national security space 
launches and competition.
    It appears to me that if this is true, that the legal 
misinterpretation of section 1608 would create a capability gap 
for certain launches and eliminates real competition for 
terminating the use of the Atlas V launch vehicle. What is your 
take on this? Would the Air Force provide for national security 
launches in light of those most recent NDAA restrictions and 
the lack of certified alternative launch providers? What is 
your take on this?

          ROCKET ENGINES FOR NATIONAL SECURITY SPACE LAUNCHES

    General Welsh. Senator, I would love to share with you my 
deep understanding of the law, if I had any.
    Senator Shelby. You might be ahead of some others.
    General Welsh. Sir, let me tell you as the executive agent 
for space in the Department of Defense, the lady sitting at my 
right has much more detail and will give you a much better 
response on this than I will. Can I defer to Secretary James on 
this one, please?
    Senator Shelby. Absolutely.
    Secretary James. Senator Shelby, the way I would put it is 
we have several sections of law which may not or may have had 
the same intent, but they are not necessarily together in terms 
of what they instruct us to do. So as you point out, we went to 
our legal authorities in the Department of Defense, and so far 
we have this interpretation that we are working with.
    But the real point that I wanted to make to you is I think 
virtually everybody agrees that we would like to, as the United 
States of America, not be so reliant on a Russian engine going 
forward into the future. In other words, we want to get----
    Senator Shelby. I think we all feel that way.
    Secretary James. Right. That is what I am saying. I am 
prefacing by agreeing with that proposition.
    But the question is how to do it and when will we be ready 
because we do not want to cut off our nose to spite our face.
    Senator Shelby. You do not want that gap there, do you?
    Secretary James. So a gap would be something that we would 
not wish to have. And so maybe some clarification in the law, 
some adjustment on that 2019 period because we are working, of 
course, to have a domestic engine launch capability--at least 
two because we want competition, of course. And we are trying 
to get there as quickly as possible. But all of the technical 
experts with whom I have consulted tell me this is not a 1- or 
2- or 3-year deal. You are looking at maybe 6 years to 7 years 
to develop an engine and another year or two beyond that to be 
able to integrate. So this truly is rocket science. These are 
hard technical problems. And so to have that 2019 date there is 
pretty aggressive, and I am not sure we can make it. And again, 
I turn to my technical experts. That is what they tell us. So I 
would certainly welcome some clarification in what Congress 
wishes for us to do, but I would also like to get the technical 
experts in so that you all can hear what I am hearing because I 
am not sure 2019 is doable.
    Senator Shelby. Absolutely. I understand that. We will work 
together with you and maybe the chairman and the committee will 
address this.
    You referred to competition, new entrants. We all like 
competition. We generally benefit from it. But you have had 
with the present joint venture on the launches--you have had 
great success. Have you not, General Welsh?
    General Welsh. Yes, sir.
    Senator Shelby. You have had fewer mishaps than I have ever 
seen. You have a lot of experience. Is that correct?
    General Welsh. Yes, sir.
    Senator Shelby. And when you send a satellite something 
dealing with national security intelligence and so forth into 
orbit, if it is not successful, you are talking about a lot of 
money lost. Are you not?
    General Welsh. Yes, sir.
    Senator Shelby. And a lot of time and probably a gap in 
intelligence.
    So how are you going to certify the competition and do it 
right to make sure there is a level playing field to make sure 
that whoever the new entrants are, that they can provide the 
quality that you have to have for national security? Do you 
want to address that, Madam Secretary?
    Secretary James. Please, yes, Senator.
    So there is a process, which we call the certification 
process. It is written down. It is in a document. And it 
basically reflects years of lessons learned and process and 
procedure stemming from those lessons learned about what it 
takes to make a safe and successful launch in space which, as I 
said, truly is rocket science. This is not easy to do. So new 
entrants go through this--what I am calling the certification 
process, and we believe that the closest new entrant, namely 
Space X, will be ready hopefully later on this year. So they 
are working their way through.
    Now, ``make every dollar count''--that is my number three 
priority. I am always looking to see can we streamline, can we 
do things differently, better, speed it up, but without 
sacrificing our mission assurance needs. And so I have asked 
for an independent review of what have we learned from having a 
year of this certification process under our belts. Can we 
speed things up? Can we do things differently? Because, 
remember, there are other companies who also are waiting and 
watching.
    Senator Shelby. Absolutely.
    Secretary James. And the more that we come we feel is best 
for us and for competition and for the national security needs.
    Senator Shelby. We do not like mishaps, but some of these 
so-called companies that are planning to compete--and we would 
like them to compete. They have had several mishaps compared to 
the joint venture between Lockheed and Boeing have not. Is that 
correct?
    Senator Cochran. The Senator's time has expired.
    Senator Shelby. Yes. I would like for them to answer the 
question.
    Senator Cochran. The witness will answer the question.
    Secretary James. So my knowledge of--again, Space X has not 
really been part of our EELV (Evolved Expendable Launch 
Vehicle) program yet. Right? They are trying to get certified 
to be part of that. But if you look back in time, they have had 
various mishaps, but every developmental program does. So, 
again, I am quite sure they are going to get there from here, 
and having some mishaps along the way in a developmental 
program or some misfires, if you will, is normal.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you very much, Senator.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    And I am glad to see Secretary James and General Welsh 
here. They are examples of the finest in our Department of 
Defense. And also I know many of the people sitting behind 
them, and I have a great deal of respect for all of them.
    I know you work as hard as you can without breaking up the 
Air Force and at the same time achieve integration and so 
forth. I know you believe that the people in our Air Force 
deserve nothing but the best in leadership and you are giving 
them that.
    I worry about exactly what you are able to do, though, and 
where the tradeoffs are as you face some of the budget 
restraints you now have before you. You have been working on 
the next generation of engines that promise to be better 
performing, far more efficient. You describe that in your 
testimony and I think here would agree with that.
    But you have also identified the adaptive engine as a 
program that is going to be halted under a return to 
sequestration. I wonder if you could both tell the committee a 
little bit of why this program is so vital and what we face if 
it is halted.

                        ADAPTIVE ENGINE PROGRAM

    Secretary James. If I could begin and then the Chief can 
jump in.
    Senator Leahy. Please.
    Secretary James. The adaptive engine program is, I think, 
important because it represents a possibility at least of a 
game-changer when it comes to efficiency in terms of our 
engines going forward. So that could be a game-changer from 
both a technological standpoint, as well as an efficiency, 
money-saving standpoint. And it is showing some early promising 
results as far as I have been briefed. So I think it would be a 
great shame.
    But you are right, Senator. It would fall by the wayside if 
we return to sequestration, as would the KC-10 fleet and the 
Global Hawk block 40 and the U-2 and seven of our AWACS. And 
the list keeps going on and on and on. So that is why I would 
renew my plea to lift sequestration.
    Senator Leahy. And, General Welsh, how do you feel about 
that?
    General Welsh. Senator, the advanced engine technology 
program is a game-changer. I think the technology will prove 
itself. I think the people participating in the program can 
build an engine, and once they have, we should be looking at 
how to insert that engine technology into every fleet of 
airplanes that we fly over time. Twenty-five percent savings 
with the amount of JP-8 that we burn every year is immense. And 
so this is technology that will return costs over time. This is 
a program that I would just hate to see terminated, but at BCA 
levels, we are now comparing it to operational requirements. 
And so that is kind of the tightrope we are walking these days. 
It is an ugly tightrope. But this is clearly a great program. 
It is clearly a very exciting technology, and I hope we can 
stay the course.
    Senator Leahy. Am I being overly optimistic? If we had this 
in here, when this committee, whoever might be on it sitting 
here 10 years from now, the Air Force might be able to say, 
``Here is our savings in fuel, here is our improvement in 
performance,'' if we have the engine.
    General Welsh. Senator, I do not think we will have created 
the full savings within the next 10 years because to do that, 
it is going to require buying new engines and inserting them 
into fleets of airplanes. But we will have begun to see the 
savings by 10 years from now if this technology proves itself.
    Senator Leahy. In 15 and 20 years, significant.
    General Welsh. And more every decade after that, yes, sir.
    Senator Leahy. Thank you.

                             F-35A PROGRAM

    Now, as I mentioned to you before, I am proud the F-35A is 
going to be coming to Vermont in 2020. I think our Guard has 
demonstrated the kind of pilots we have and the kind of 
maintenance we have for it. But I know there have been concerns 
about the F-35 achieving its operating capacity. It has had 
cost overruns, program delays.
    Can you tell me: What is the status of it today? What are 
we looking at as we go into the future?
    General Welsh. Senator, I am actually very optimistic about 
the F-35 program today. As you mentioned, there are problems in 
the past. They are undeniable and they are well documented.
    Since I came into this job in the late summer of 2012, my 
first move in this job was to sit down with the program officer 
of the F-35 and asked them to show me the program rebaseline 
that had occurred in 2011. And General Bogdan walked me through 
that along with my F-35 team in the Air Force.
    We have essentially tracked every milestone since that 
time. The price has come down, the cost curves they showed me 
back in 2012. The company team that has been put together to 
oversee this program I think is an exceptional one. I think we 
have a great partnership with them, and I think the airplane is 
now a real thing. This is no longer a PowerPoint slide. We have 
flown thousands of F-35 sorties now. They are on the ramps in 
multiple bases. We are starting training of our first 
operational pilots. And so we are well into this program being 
a real thing.
    A year from now, a year and a half from now, we will 
declare initial operational capability for the F-35, and I see 
nothing that stands in the way that is known today that would 
stop us from declaring that initial operational capability. So 
I feel pretty good about where the program is.
    Senator Leahy. And you agree with that, Madam Secretary?
    Secretary James. I do. And I would just add in that I agree 
with the Chief that we were projecting in, as you know, 2016 
between I think it is August and December to reach that IOC 
(initial operational capability). So there are always certain 
risks, but I too feel quite good about it that we are going to 
make it. Software can be a tricky matter, and that always is a 
bit of a concern. And then we have had the need for experienced 
maintenance people to be able to shift over to the F-35. We 
think we have got that reasonably under control now. So we are 
moving out.
    And like the Chief, I conduct monthly program reviews of 
the F-35 because I too want to make sure that we do not repeat 
to the days of old when we were not meeting budget and not 
meeting the schedule. We want to keep this on track.
    Senator Leahy. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Before I begin my questions, I want to thank General Welsh 
and his wife for coming to Maine last week to visit our Air 
National Guard base and the refueling wing that is there. It 
meant a tremendous deal to the men and women who are serving 
there. And I think you can see why we in Maine are so proud of 
the MAINEiacs and the 24/7 job that they perform. So thank you 
for coming.
    I want to follow up on Senator Leahy's question about the 
F-35, Madam Secretary. I totally share your belief that 
sequestration needs to go away permanently, and it would have 
devastating impacts if it does not. You would have to buy fewer 
aircraft. That has consequences not only for our national 
security but also--and this is often not talked about--for the 
value that the taxpayers are going to get. If sequestration 
were to come back in 2016, what impact would it have on the 
unit cost of the F-35?
    Secretary James. I can tell you with certainty it would go 
up because we would have to buy fewer, and when you buy fewer, 
the cost goes up for everyone. And the other thing that worries 
me is what message does that send to the partners in this 
program across the world. In other words, if they see us buying 
less and then they start to also buy less, that drives the unit 
cost up even more. So we project we would be buying 14 fewer F-
35s in fiscal year 2016 if sequestration returns. And again, we 
do not want to. We want sequestration lifted.
    Senator Collins. And I think that is such an important 
point, as General Welsh talked about the fact that this program 
now is on track, it is doing well. And if sequestration is not 
removed, the unit cost is going to go right back up, and our 
partners around the world are going to be far less willing to 
join in buying this aircraft, which right now has the 
beneficial impact of lowering the cost for us. Is that 
accurate?
    Secretary James. That is accurate, yes.
    Senator Collins. Thank you.

                          AIR FORCE READINESS

    General Welsh, even without sequestration, I am very 
concerned about the state of readiness of the Air Force, 
particularly as it is being called upon to perform missions 
against ISIL. It seems that we expect air power to be available 
instantly and able to do the job. And I am particularly 
concerned to learn that under the current budget projections 
that the Air Force will not be fully ready to perform full-
spectrum operations for 8 years. Is that still accurate under 
this budget? And if so, what do we need to do to reduce that 
timetable?
    General Welsh. Senator, it is true, and the 8 years is an 
estimation depending on how well we are able to invest in those 
mission-critical infrastructure things I mentioned before. We 
have two things that we are concerned about. The first is 
individual and unit readiness. And the Balanced Budget Act that 
we got for 2014 and 2015 from the Congress allowed us to get at 
that individual and unit readiness. So it has actually 
improved, although while the specific number is classified, I 
will tell you the overall combat capability of our combat-coded 
squadrons in the Air Force is still below 50 percent. So fewer 
than 50 percent of them are fully combat capable. But it is 
rising.
    At the Budget Control Act levels of funding, that decline 
will be stunted. It will not be a precipitous drop-off because 
we will prioritize funding for readiness. But we will not be 
able to continue the recovery of individual and unit readiness 
that we had started over the last 2 years.
    The bigger problem that leads to the 8-year to 10-year 
window that we are talking about is that we have to invest in 
those things like training ranges that we have significantly 
reduced funding in the last 15 years, black and white world 
test infrastructure, nuclear infrastructure that produces 
combat capability, simulation infrastructure that we took money 
out of flying hours because we were going to perform more in 
the simulator. Then we did not invest that corresponding 
funding into simulators. We have got to rebuild that 
infrastructure, and it is going to take some time. That is what 
the 8- to 10-year window is talking about.
    Senator Collins. Thank you. And we have an ideal site for 
one of those simulators in Bangor.
    Thank you, Mr. Chairman.
    Senator Cochran. Senator Schatz.
    Senator Schatz. Thank you, Chairman Cochran and Vice 
Chairman Durbin.
    Secretary James and General Welsh, I appreciate you being 
here today.
    From the Hawaii perspective, I understand how important the 
Air Force is to the joint force, and I welcome the opportunity 
to discuss priorities for Hawaii and for the Nation.
    I want to talk a little bit about energy. It is critical 
for the Air Force's mission. Without assured access to fuel, 
you cannot fly your aircraft or power generators at forward-
operating bases. That is why a varied energy research portfolio 
that balances investment in aircraft efficiency and alternative 
electricity generation is so important.
    In Hawaii, we are doing some exciting things with hydrogen 
fuel to support Air Force installations, and I think it is the 
kind of technology that could mean reducing the need for fuel 
in theater.
    Do you agree, Secretary James, that a varied energy 
research portfolio should include investments in alternative 
energy?

                            ENERGY RESEARCH

    Secretary James. I do, Senator. And talking about a wartime 
environment for just a moment, if there are a couple of lessons 
learned that we have learned over the 12-13 years of war, it is 
the need to constantly resupply energy, particularly the more 
traditional forms of energy, to our forward-operating troops. 
It is a difficult proposition and it puts lives at risk 
because, of course, those resupply lines can become a target. 
So the more we can look into renewable energy and other such 
areas, I think the better. So we do need, we do need a varied 
portfolio. At the moment, I believe we have about 300 renewable 
projects at 100 different sites across our Air Force. So we are 
working on this, and I would really welcome, the next time I 
have the opportunity to get out to Hawaii, to look at the 
project that you are speaking about.
    Senator Schatz. Thank you very much.
    This question is for General Welsh. The Air Force can do 
more to capitalize on the talents of the National Guard and 
Reserve, particularly when it comes to cybersecurity. Instead 
of losing experienced airmen, the Hawaii Air National Guard has 
worked to train, validate, and transition a combat 
communications squadron into a new National Guard Cyber Warrior 
unit that would strengthen the Air Force's cyber capabilities 
in the Pacific without increasing end strength.

                    CYBERSECURITY/CYBER UNIT BASING

    I know the Air Force is still coordinating with U.S. Cyber 
Command, the National Guard Bureau, and others on a 
congressionally directed study before it bases its cyber 
warrior units. Could you please describe what the basing 
criteria is going to be that the Air Force is considering as it 
evaluates assigning these cyber units?
    General Welsh. Senator, I will be happy to. We will get you 
the detailed listing from the Air National Guard who are 
actually conducting this assessment. But in general terms, we 
have three of the cyber mission teams that we are forming as 
part of the 39 to support the national mission teams and the 
cyber support teams for U.S. Cyber Command. Three of those will 
be completely executed by the Air National Guard. There will be 
a total of about 18 Guard units that contribute people for a 
24/7/365 operation. And so as they look at where to bed down 
those 18 units, they are considering things like industry and 
academic environment in the region. In other words, do you have 
expertise who can be recruited into the Guard who work in the 
IT industry, the education industry who are experts in this 
arena so we can take advantage of places like Washington State, 
areas of the Northeast where there is a great IT infrastructure 
nearby? We have already stood up some units in those places. 
Maryland has been a hotbed for this around and near NSA, for 
example, a lot of high-tech that supports NSA that also 
provides great recruits for the Air Guard. They look at some of 
the more mundane things like facilities available to include 
secure facilities and what it would cost if there were not 
facilities available. They look at recruiting and retention 
capabilities in each region.
    And so the Air Guard is running this assessment now, and I 
know that TAG (the Adjutant General) should have this 
information that is coordinated through the National Guard 
Bureau. But we can get you the detailed list of what they are 
looking at and get that to you. I just do not know every item 
that is on it.
    [The information follows:]
    The ANG is evaluating the beddown of future ANG cyber units through 
a variety of lenses.
  --Existing Department of Defense or Air National Guard Facility 
        Total: 10,400 square feet, including SCIF 5,500 square feet (No 
        MILCON due to timing constraints)
  --Recruiting Pools (Military & Civilian)
  --Population Densities
  --Advanced Technical Training & Degrees
  --Academia
  --Tech Industry
  --Force Protection
  --National Laboratories
  --Cyber Trained Air National Guard Personnel

    Senator Schatz. Thank you.
    I am particularly concerned about the Pacific Command's 
vulnerability to cyber attack because, unlike perhaps some 
other places, PACOM and the Department of Defense's 
installations and bases throughout the State of Hawaii are 
basically on the Hawaii grid. There is no islanding of any of 
the grids. Whatever kind of utility service, whatever 
vulnerability we have on the private sector side is the 
Department of Defense's vulnerability.

                           KC-135 RELOCATION

    I am almost out of time, but I wanted to flag for you one 
issue which has to do with the stance towards the Asia-Pacific 
rebalance. And I know that you are making difficult budget 
decisions, but we have 12 KC-135 refueling tankers and the 
current budget proposal has four of those KC-135s relocating to 
the mainland United States. And that to me is inconsistent 
with----
    Senator Cochran. The time of the Senator has expired.
    Senator Schatz. So if you could please get back to me on 
those issues.
    [The information follows:]
    The Air Force conducted cost benefit analysis of transferring the 
four Joint Base Pearl Harbor Hickam KC-135s prior to including the 
movement in the fiscal year 2015 President's budget request. The 2015 
National Defense Authorization Act directed report is in coordination 
and outlines the factors, risks, and savings associated with the 
decision. Furthermore, the analysis indicated the change in force 
structure at Joint Base Pearl-Harbor Hickam has no operational impact 
on providing air refueling capability in the Asia-Pacific theatre. A 
net decrease in availability of one Pacific Air Force-based tanker per 
day does not necessarily equate to a loss of air refueling capability. 
U.S. Transportation Command will remain fully capable of delivering air 
refueling capability to the region as necessary.

    Senator Schatz. Thank you, Chairman.
    Senator Cochran. Thank you.
    Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    Secretary James and General Welsh both, I was really 
pleased to see the proposed investment in MILCON and the new 
stealth and nuclear work facility at Whiteman Air Force Base, 
continuing to encourage your efforts in that direction and glad 
to see them.
    General Welsh, on the deployment of the C-130s to go to one 
of our other installations in our State--I know you are well 
aware of the C-130 training that goes on at St. Joseph, 
Missouri at the Rosecrans Base, which now includes, I think, 18 
people from 18 different countries. And this year we may add 
South Korea and Turkey to that list of people we bring there to 
learn to use that aircraft more effectively.
    I would like you to respond a little bit, your sense of the 
fielding and deployment for the C-130s, particularly the new J 
models. This is something I put in our bill last year asking 
you to look at that, and a response to that would be helpful.

                     C-130 FIELDING AND DEPLOYMENT

    General Welsh. Senator, the Air Mobility Command has been 
leading the effort along with the TAGs from each of the States 
that have C-130 units in those States, Air Force Reserve 
Command, and the National Guard Bureau to look at the 
allocation plan for C-130s, everything from bed-down to 
modernization. As you know, we did a study back in 2012 that 
said we actually have more capacity than we need to do our job. 
And so starting in the fiscal year 2013 budget, we looked at 
how do we draw down from the 358 we currently have to about 300 
to 308, which is what the study said we should move to.
    Those plans have been stalled a little bit while we make 
sure we get the allocation plan right. The most recent 
direction from the Congress was in last year's NDAA, the 2015 
NDAA, which directed us to submit a report that describes that 
allocation plan, the modernization approach, et cetera. That 
report is finished. It is in initial reviews in the Air Staff. 
I commented on it last week to my staff, returned it to the 
headquarters Air Force staff. We now need to get the final 
draft put together. It will come back through me within the 
next couple of weeks to the Secretary so she can review it and 
make final decisions. And that will then be forwarded to the 
Congress. So the report should be here within the next month in 
its final form, and all the details will be there.
    So I hate to get ahead of the Secretary's decision process 
on this, but this is all part of that review and we will either 
validate or adjust the allocation plans that were in both the 
2014 and the 2015 PB.
    Senator Blunt. Well, I look forward to seeing that review.
    Secretary James, do you want to make a comment on this 
topic generally of how we are going to field the planes we do 
wind up with?
    Secretary James. My only comment, Senator, would maybe be 
just going back to the basic why are we doing any of this. And 
that is--it was several years ago, I believe, there was a large 
study conducted within the Department of Defense, and that 
study indicated that we had too many of intra-theater airlift 
aircraft, namely the C-130. So it is a question of how can we 
bring the numbers down, keep the newer ones in the inventory, 
gradually perhaps retire the older ones, and then these various 
shifts that are going on. So that is the complexity of it. But 
beyond that, I do not really have a comment because I have not 
seen the report yet. I am awaiting General Welsh's 
recommendations.
    Senator Blunt. Well, I asked for the report last year which 
sounds like it is about to be forthcoming, and I look forward 
to talking to both of you about it when you get the report.
    And the other thing: I will just make this case one more 
time. If we are going to train our pilots to use this aircraft, 
we certainly need the newer models available, at least one of 
them, at what is a principal training facility. And I hope we 
continue to head in that direction.

                             A-10 AIRCRAFT

    Secretary James, on the A-10, you are more familiar than 
anybody on both sides of that debate. But I continue to hear 
from people who are responsible for troops on the ground that 
there is nothing in their view that is going to replace the A-
10. The replacement aircraft would be in your view--and what is 
your response to General Odierno and others who say the A-10 is 
the best combat support aircraft for people on the ground 
available right now?
    Secretary James. All of the information and data that I 
have seen about the conduct of the last, again, 12-13 years of 
war, something like this, that we have been in in Iraq and 
Afghanistan tells me that the A-10 has done a magnificent job, 
but so has the F-16 and the F-15E. And the B-1 bomber has been 
a contributor, and there have been a number of aircraft that 
have contributed to the totality of close air support. So to me 
close air support is not a plane. It is a mission and it is a 
sacred mission and we got it. So I just want to assure you of 
that.

                   ALTERNATIVE APPROACHES TO THE A-10

    In terms of the proposal to retire the A-10, again we do it 
with the greatest of reluctance. It is a budgetary matter. If 
we had dollars above the PB level, then things open up and 
become more possible. But again, we have what we have, and we 
are very worried it is going to get even worse if we have to 
return to sequestration. So it is a budgetary matter.
    But I will also say this that every aircraft eventually 
gives way to the next generation. Eventually it gives way. And 
I know General Welsh and I have been discussing is there an 
alternative approach to address the A-10 and is there another 
way to go about this and so forth. And we have got some ideas. 
At the appropriate time, maybe we could sit down and discuss 
these ideas at greater length.
    But again, it is a budgetary matter, and in terms of the 
mission of close air support and our support for the troops on 
the ground, we got it, and we have got other aircraft that 
absolutely will carry forth with that mission.
    [The information follows:]
    The Air Force is evaluating close air support capabilities and is 
assessing potential future capability and capacity gaps. This 
information will then inform the requirements process. It would be 
premature to discuss those requirements until they are fully 
established. However, we look forward to sharing ideas and concepts 
with any interested parties in the Congress.

    Senator Cochran. The time of the Senator has expired.
    Senator Udall.
    Senator Udall. Thank you, Chairman Cochran.
    And Secretary James and General Welsh, thank you for taking 
time to meet with us today and thank you for your service to 
our country.
    As you know, New Mexico has a long and proud Air Force 
history, and as a new member of this subcommittee, I am 
particularly proud to speak on behalf of the airmen, civilians, 
and their families of our three Air Force bases in New Mexico.
    Like you, I am concerned about the impacts of sequestration 
on our military readiness, and I have seen firsthand the strain 
being placed on our airmen and women after a decade of war.
    It is important to me that we modernize our nuclear 
stockpile and our nuclear enterprise and do so in a cost-
effective way. I have been working hard to strengthen the 
capabilities of our national labs and the military as they work 
together to ensure that our deterrent is safe, secure, and 
effective. There is no room for failure in this mission.
    That being said, I am also encouraged and amazed by the 
work being done by the Air Force. I see it at the Air Force 
Research Lab at Kirtland Air Force Base where our airmen and 
civilians are working on cutting-edge technology. I see it at 
Cannon Air Force Base where the special operations mission has 
grown by leaps and bounds and is really making progress there, 
and at Holloman Air Force Base where the Air Force's F-16 
pilots are being trained in the best airspace in the country. 
And there are numerous other examples I can cite both in New 
Mexico and outside.
    As you know, Holloman Air Force Base is currently taking on 
an F-16 training mission. I believe that the F-16 mission will 
continue to be an important mission for the Air Force, but I am 
also looking towards the future and the potential for the F-35. 
And you have heard several Senators ask about the F-35. And I 
am looking forward to the F-35 basing at Holloman down the 
road. This budget supports increased production for the F-35. 
Do these production levels allow the Air Force to continue to 
move toward future domestic basing of the F-35, and will 
Holloman Air Force Base remain a candidate for such basing in 
the future?

                              F-35 BASING

    General Welsh. Senator, absolutely. Eventually the F-35 buy 
would allow for replacing every F-16 unit we have with an F-35 
squadron.
    The next two iterations of basing decisions actually will 
occur for units that will bed down in fiscal year 2022 and 
2023, and those will both be Air National Guard units. And so 
that is the next iteration of the basing decisions after the 
one currently ongoing for the first Pacific bed down location 
where Eielson Air Force Base, Alaska has been identified as the 
preferred base, and there are a couple of reasonable 
alternatives. And that final decision is based on the EIS 
(Environmental Impact Statement) results that are currently 
ongoing.
    But it will be a couple of years until we look at the next 
bed-down because of production rates and already decided basing 
decisions. But the next two will be Air Guard. The year after 
that in 2024, we will be looking at another active unit bed-
down.
    Senator Udall. Thank you very much for that answer.
    As you know, the cleanup of the oil spill at Kirtland Air 
Force Base is a top priority I know for you and for me. Can you 
tell me how this budget supports Air Force environmental 
cleanup efforts at Kirtland, and can we have your commitment 
that this will remain a priority in the next fiscal year and in 
future budgets?

               KIRTLAND AIR FORCE BASE OIL SPILL CLEANUP

    Secretary James. So you certainly have my commitment that 
it will remain a priority. And I for one do not have sort of 
budgetary figures, but please know we are putting the right 
people resources, and we will also put the right money 
resources. And I would have to yield to General Welsh if he 
happens to know the money or we can get it for the record.
    General Welsh. Yes, ma'am. I do not know the detail of the 
money, sir, but I do know the intention is clearly to fund this 
until completion. You know well, I think, that the team has 
been working this very well with the State, with the local 
communities, and there is a complete commitment to do exactly 
what the Air Force needs to do to resolve the situation.
    We will get the exact numbers that are in the budget. I 
just do not know.
    [The information follows:]
    The Air Force has $29.2 million budgeted for cleanup at the 
Kirtland AFB bulk fuel facility in fiscal year 2015, and $11.85 million 
included in the fiscal year 2016 budget. The fiscal year 2015 and 
fiscal year 2016 costs include robust interim measures and further 
delineation of the plume that will allow us to make informed decisions 
on final cleanup measures and funding in future years, to which the Air 
Force is fully committed.

    Senator Udall. And I know, General Welsh and Secretary 
James, you have a top person in Washington that is on top of 
this, and she is visiting New Mexico on a frequent basis, 
staying in touch with the communities. There is a lot of local 
concern there because, as you know, it is a big plume down in 
the water, and people are very worried in their neighborhoods. 
And I know that you are putting a top priority on this and 
being very aggressive. Thank you very much for that.
    Thank you, Chairman Cochran.
    Senator Cochran. Thank you, Senator. The Senator's time has 
expired.
    Senator Moran.
    Senator Moran. Mr. Chairman, thank you very much.
    Madam Secretary and General, thank you for the opportunity 
to have a conversation with you today, and I appreciate the 
conversations we have had in the past.
    Let me highlight cybersecurity again. My understanding is 
the Air Force intends to increase the number of personnel 
involved in cybersecurity by 200 in fiscal year 2016 to counter 
a worldwide threat. And I want to highlight what I hope will be 
a good analogy, which is there is an Air National Guard unit in 
Wichita--General, I think you are familiar with it--with 
significant and I would say unique capabilities. Similarly, 
there is an active duty unit at Nellis. General, the activities 
at Nellis is something that the Air Force will continue to 
support, believe is important, and have no plans to downsize. 
Would that be an accurate statement?

                          CYBER SUPPORT TEAMS

    General Welsh. Yes, sir. Nellis will become a focal point 
for us in how we actually execute our five core Air Force 
missions in, through, or from the cyber domain, which is the 
growth area for us in the future, not just supporting the 
national effort with the cyber teams that we are currently 
fielding.
    Senator Moran. And then could you take that a step further 
and talk about the importance of what goes on at McConnell with 
the Guard unit, the idea of downsizing, reducing the number of 
personnel? If it is important at Nellis in the Active 
Component, the Guard unit that does very similar activities is 
of equal importance. Is that accurate as well?
    General Welsh. Yes, sir. I think what the Guard is in the 
process of doing, as we were discussing a moment ago with 
Senator Schatz, is looking at how does the Guard actually 
support both the national mission teams, the cyber support 
teams, the people who support U.S. Cyber Command and their 
activities on behalf of the national tasking and combatant 
command tasking. That is one part of the Guard's allocation 
problem.
    The second is how are they going to support this broader 
Air Force effort as we jump into it. And that is where I think 
units like the one at McConnell Air Force Base, Kansas will be 
most valuable, quite frankly.
    Senator Moran. Well, and I would like to highlight and hope 
that you would agree with me that part of the problem in any 
downsizing is you lose significant capabilities, training. 
Those individuals who are in, in this case, the Guard will find 
other positions and it is difficult to replace those folks. The 
personnel who are so well trained who have experience and 
capabilities in this arena are people that we desperately need 
to keep in either Active Duty or in the Guard. Is that a fair 
statement?
    General Welsh. Yes, Senator, I think it is clearly a fair 
statement. I do not know what the Guard's current status of 
this assessment is or their view of the unit at McConnell. I 
would have to ask the Guard that question. But in general 
terms, you are exactly right.
    And I will tell you this. The Secretary mentioned that we 
just cannot keep drawing down the Active Duty force anymore or 
we will not be able to do what we are asked to do today. We 
should be looking at expanding mission capability in the Guard 
and Reserve, and this is one of those areas that just makes 
sense to put there.
    Senator Moran. I appreciate that answer.

                              KC-46 TANKER

    Madam Secretary, the KC-46 tanker has significance in this 
country and long time coming. Tell me about your budget and its 
consequences for the KC-46, and if we have additional 
sequestration, how does the KC-46 fit into the Air Force's 
plans?
    Secretary James. So our budget at the President's budget 
level fully supports the KC-46, and even should we have to go 
to sequestration, we would wish to protect that program as 
well. We have what we consider to be a very favorable contract 
there, and we do not want to change any bit of that contract 
because if we do, it raises the possibility of opening that 
contract back up, which means the terms could change and it 
could cost us more money. So it is on track at the President's 
budget level, and we want to keep it on track even should 
sequestration happen.
    Senator Moran. And therefore, I would say that if the 
Budget Control Act funding levels actually come into play, that 
we would be assured that the levels necessary to construct and 
maintain what is taking place to support the KC-46, the 
contract for its construction would not be affected?
    General Welsh. Senator, the only impact will be the loss of 
one dormitory at one of the bed-down bases. All the mission-
critical MILCON is either already on contract, about to go on 
contract, or in the 2016 President's budget request. We are on 
track to get the first airplane at McConnell in 2016.

  FORBES RUNWAY CONSTRUCTION AND AIR TRAFFIC CONTROL TOWER REPLACEMENT

    Senator Moran. Somewhat related to this tanker issue--at 
some point in time, I would raise this issue and maybe we can 
have this conversation as my time is expiring. But at Forbes, 
runway construction is an important topic, and at McConnell, 
the air traffic control tower has been damaged in a storm. It 
needs to be replaced. It is in the process, but I would like to 
hear you say that those things remain important, particularly 
as the tanker arrives at McConnell.
    Thank you. I guess I would like a response.
    General Welsh. Senator, I will check on this. I do not know 
anything about those specific projects, but I will get back to 
you on those two.
    [The information follows:]
    At Forbes, there are two runways, the main runway and a crosswind 
runway. In 2013, the Air National Guard (ANG) partnered with the 
Federal Aviation Administration (FAA) and the airport authority to fund 
rehabilitation of the crosswind runway. The project is under 
construction. The main runway also needs reconstruction/replacement of 
failing pavement.
    FAA has determined they will only fund a portion of the main runway 
length/width for the ``civilian'' requirements. The ANG KC-135 mission 
requires longer/wider runway than the civilian mission, so the ANG will 
need to provide a share of the funds for the main runway replacement. 
The ANG will work with the FAA to align funds in the appropriate 
construction year with FAA funds. If the FAA gets fiscal year 2016 
funding for their share, the ANG will make every effort to align ANG 
funds to fiscal year 2016 to match.
    On April 14, 2012, McConnell AFB air traffic control tower and the 
surrounding community experienced wind damage due to a tornado. The 
U.S. Army Corps of Engineers performed a structural engineering 
evaluation of the control tower and recommended repairs. Based on these 
recommendations, $150,000 in repairs and modifications were made to the 
control tower structural steel. A replacement air traffic control tower 
for McConnell AFB is currently identified for fiscal year 2017.

    Senator Moran. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Cochran. The time of the Senator has expired. Thank 
you.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman, and I want to 
thank both of you for being here. A special thank you to 
Secretary James for the attention you have shown Malmstrom over 
the last year. I very much appreciate that.

                        RED HORSE CONSOLIDATION

    As you well know, the Air Force began drawing down 155 
airmen out of the 819 Red Horse Squadron at Malmstrom, and you 
are considering a consolidation of Malmstrom with Guam either 
at Guam or at Malmstrom. When can we expect a final decision?
    Secretary James. I would anticipate the spring of this 
year, so spring of 2015.
    Senator Tester. So we are talking a couple months?
    Secretary James. A couple months, 2-3 months.
    Senator Tester. Can you explain the cost or operational 
considerations behind the decision?
    Secretary James. It will be, I will say, similar to our 
typical basing decisions. So there will be things like site 
surveys, and it will be military necessity. It will be the 
cost. It will be the various things----
    Senator Tester. So you will take into account potential 
cost savings plus the gap in service that this will create in 
this country, particularly west of the Mississippi and 
Northwest.
    Secretary James. Yes. I anticipate this is going to be a 
very tough one.

       819TH RED HORSE MOVEMENT TO GUAM IMPACT TO 219TH RED HORSE

    Senator Tester. Okay. We have got another unit that works 
with the Red Horse in the Guard called the 219th, and it is a 
Guard Red Horse unit across town at the Air National Guard. Can 
you tell me what impact moving the 819 to Guam would have on 
the 219th up in Great Falls, the associated Guard unit with 
them?
    Secretary James. Right. So can I get back to you? Because I 
would be guessing if I said it here.
    [The information follows:]
    If the 819th RED HORSE Squadron (RHS) relocates, the Air Force will 
diligently work with the National Guard Bureau to ensure the 
effectiveness of the 219 RHS at Malmstrom Air Force Base. Manageable 
impacts to 219 RHS manpower and facilities are anticipated. Air Force 
preliminarily anticipates a need for four technician positions to 
manage and maintain remaining vehicles and equipment. To provide 
adequate space for 219 RHS personnel, equipment storage and parking, 
819 RHS would transfer 47,600 square feet of facility space and 13,000 
square yards of yard space.

    Senator Tester. Yes. My concern is it would eliminate their 
ability to do their work because I would imagine the equipment 
would go, if you are going to talk about cost savings.
    The 130s at the Air Guard. First of all, thank you. They 
just underwent the conversion. This is a mission that I think 
works not only for the Guard but it works very well for the 
Governor of the State of Montana.
    There are some issues, though. Avionics upgrade in the 
130s. Could you tell me what the timeline is for upgrading the 
130-H's for upgrading those avionics?

                  C-130 AVIONICS MODERNIZATION PROGRAM

    Secretary James. This is the so-called AMP (Avionics 
Modernization Program) program.
    Senator Tester. Yes.
    Secretary James. So let me tell you what I know, and then 
the Chief will jump in.
    So overall, the issue is the original program, C-130 AMP, 
is quite expensive, and because of the budget constraints, 
instead what we are trying to do is focus on a similar but I 
will say less expensive program which focuses on safety and 
getting the C-130s compliant with both FAA (Federal Aviation 
Administration) and ICAO (International Civil Aviation 
Organization) standards--that is the international standards--
by, I want to say, the early 2020s. So that is the focus that 
we are operating under.
    Senator Tester. Go ahead, General Welsh.
    General Welsh. Senator, you know the long history of AMP to 
AMP lite to CNS/ATM (Communications, Navigation, Surveillance/
Air Traffic Management).
    Senator Tester. Yes.
    General Welsh. We are now in a program. The program name is 
VAAP (Viability and Airspace Access Program), two increments, 1 
and 2. But the bottom line is just the compliancy program is 
VAAP-1, the first side of this. The second part of this, VAAP-
2, is actually a modernization program that would be AMP-ish 
but not the full AMP program. 2020 is when we have to have 
these things compliant with the international and national 
airspace rules.
    Senator Tester. And 2020 for the FAA.
    General Welsh. But prior to 2021. FAA and ICAO, 
international airspace--the TAGs--I spoke with all of them 
yesterday. They are fully in agreement with us and signed a 
letter at the end of the last cycle that we need to move 
forward with putting compliancy into these airplanes as the 
first step.
    Senator Tester. So the question is--I got it. I got what 
you are trying to do. Are we going to meet the FAA's 2020 
guideline?
    General Welsh. We think we will get done by 2021 to 2022.
    Senator Tester. But what does that do with the FAA 
guidelines, though? Because they go into effect in 2020.
    General Welsh. Senator, it is a physics problem now. We 
just cannot get there from here. You cannot do the 
modifications on 166 airplanes fast enough to get it done by 
then.
    Senator Tester. Okay. So what does that mean? Those planes 
are grounded?
    General Welsh. We can ask the FAA for a waiver. They have 
granted them in the past, and I believe they will grant them 
this time. But they will not do it for large numbers of 
airplanes. So if we show them a program that is on track that 
we will complete--let us even say worst case and say 2022--we 
believe we will get the waiver to operate both nationally and 
internationally. The problem with AMP is it would take us to 
2025 or beyond. We do not believe they will grant a waiver for 
that period.
    Senator Tester. Do you have the determination of the order 
of the aircraft that are going to be brought up to snuff?

     AIR MOBILITY PLAN FOR VIABILITY AND AIRSPACE ACCESS PROGRAM, 
                           INCREMENTS 1 AND 2

    General Welsh. Air Mobility Command is working the entire 
plan. Yes, sir.
    Senator Tester. Could we get a copy of that plan?
    General Welsh. I will go give you what they have as of 
right now.
    Senator Tester. They ought to have the plan done by right 
now truthfully. Should they not? I mean, we are talking 4 or 5 
years.
    General Welsh. Senator, we have had four plans that have 
all been changed because we have not been allowed to change 
from the original AMP program.
    Senator Tester. Okay. I got you. Well, I would love to see 
who they are modernizing and when.
    [The information follows:]
    The Air Force continues to work towards the safety, compliance and 
modernization of our legacy C-130 fleet. Because of the cost and time 
required to conduct the modernization of the legacy C-130 fleet, we 
believe, and the Department of Defense has certified, that we need to 
fund the airspace compliance modifications first. The Air Force intends 
to follow the fiscal year 2015 National Defense Authorization Act 
guidance and we want to work with the Congress and our Total Force 
partners to develop an affordable C-130 modernization program.

    Senator Tester. I have got a bunch more questions for you.
    General Welsh. Yes, sir. I will tell you this. Your TAG is 
in the discussion. They are part of this debate. They sat with 
the Air Mobility Command guys. They have been briefed on the 
entire program.
    Senator Tester. You understand my concern. I do not want to 
end up with a fleet that is sitting on the ground.
    General Welsh. Oh, absolutely.
    Senator Cochran. Thank you, Senator.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    General, Secretary, welcome.
    As you know, in Alaska this week, the Army is conducting 
listening sessions in both Anchorage and Fairbanks to receive 
public input on the downsizing plans. I have stayed up late 
both evenings to participate by video conference and be part of 
that commentary.
    One of the proposals, of course, is to deactivate the 
airborne brigade there at JBER, at Joint Base Elmendorf-
Richardson. And I am not going to ask you about what Army may 
or may not do, but it seems to me that one of the things that 
should be considered in all of this is the efficiency and the 
quality of life at JBER. And it is my impression, as I have 
talked with many in the Air Force and Army, that JBER is not 
only one of the best bases in the Air Force, it is also a place 
where joint basing is actually working where we have seen the 
benefits of the efficiency.

                         ARMY GRAY EAGLE BASING

    Can you give me, General Welsh, your impression of the 
value that JBER and the joint basing provide to the Army?
    General Welsh. Senator, I can tell you the value it 
provides to the Air Force. You might have to ask Ray Odierno 
what it provides to the Army.
    Senator Murkowski. Well, but more important to the notion 
of joint basing because there are those that are detractors. 
They do not think it is working. My observation and again what 
I have heard from many is that joint basing really has worked 
at JBER. So I guess that would be my broader question to you.
    General Welsh. Senator, not having been assigned to JBER 
but only visited several times, I would just tell you that the 
perception inside the uniformed services of joint basing 
depends on where you have been. And it is actually sometimes 
temporal. So with a certain set of leadership teams in place on 
both sides of the joint divide, things work great. The next 
team comes in and things start to be a problem again. I mean, 
there is a human element in this that is important to consider. 
I do not think joint basing is a right solution in every 
situation, but I think it clearly has been successful in 
places.
    The last time I was at JBER, I thought it was going very 
well. There was a great leadership team in place. They were 
communicating very well. They were working projects and 
problems together. I was impressed.
    Senator Murkowski. Well, I am not going to argue with you 
about the leadership and what that builds. But again, I think 
we have seen some good, positive benefits coming out of JBER, 
and that is going to be one of the things that will be factored 
in as they wind up these listening sessions here.
    Let me ask a couple more questions about F-35s. There have 
been many members that have asked about it. I appreciate your 
response to Senator Leahy about where we are with addressing 
the problems and your view that really nothing should stand in 
the way of the initial operating capacity. You sound pretty 
confident that the problems have been fixed.

                          F-35A OCONUS BASING

    So the question here this morning is that it relates more 
specific to the F-35s that Air Force has selected Eielson shall 
receive as the sole, preferred location for the first of the 
two squadrons. We are willing to wait for the completion of the 
NEPA (National Environmental Policy Act) review and the 
issuance of the record of decision. What is the timetable here 
for commencement of the NEPA, and when might we expect the ROD 
(Record of Decision) to be issued?
    General Welsh. Ma'am, I think the NEPA effort will begin 
here in the very near future. It is about a 1-year process. We 
anticipate that early in 2016 the results will all come back to 
the Secretary to make the final basing decision.

          ARRIVAL DATE FOR F-35S AT EIELSON AIR FORCE BASE, AK

    Senator Murkowski. And then in terms of when we might 
actually anticipate seeing these two squadrons at Eielson, when 
do you figure that is?
    General Welsh. Senator, I do not remember the actual 
arrival date of the first airplane. I want to say 2019. Let me 
find out. I will get back to you. I just do not remember.
    Senator Murkowski. That would be appreciated.
    [The information follows:]
    Eielson Air Force Base, AK was named in 2014 as the preferred 
alternative for the first F-35A beddown location in U.S. Pacific 
Command, and a final basing decision is expected in the spring of 2016. 
Pending a final basing decision, F-35A aircraft are projected to begin 
arriving at Eielson Air Force Base in the summer of 2019.

    General Welsh. The only issue that would affect--by the 
way, we talked about IOC. What we did not talk about is the FOC 
(full operational capability) day, which is in 2021. And for 
the Air Chief, the real important date is 2021. It is when we 
get full operational capability of this aircraft. We are not 
supposed to have the full operational capability when it 
appears at the end of next year. It will have operational 
capability, but the things that are being discussed in the 
press and elsewhere are things that we have known it would not 
be able to do. It has been part of the plan the entire time. 
And so full development of that capability will come at full 
operational capability and then with follow-on software loads.
    So the biggest hurdle to get over between now and then in 
2021 that could affect basing beyond the training bases is this 
maintenance manpower issue. This is a real issue for us. We 
have got to figure out how to create trained maintainers from 
the experienced maintenance force in the rest of the Air Force 
to bed down F-35 units. We have got a short-term solution in 
place that we think will let us get to IOC, but we need the 
longer-term solution which is going to require finding 
maintenance manpower from other aircraft systems in the Air 
Force.
    Senator Murkowski. Understood.
    Senator Cochran. The time of the Senator has expired.
    Senator Murkowski. And if there is any change with that 
2019 date, if you could confirm with us, I would appreciate it.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    Senator Daines.
    Senator Daines. Thank you, Mr. Chairman.
    Secretary James, it is great to have you here. I hear you 
saying you were out in Montana last week.
    Secretary James. I was.
    Senator Daines. It was good to have you out there. It was 
good to see you the last time you were out there as well.
    I do echo Senator Tester's concerns. We look at the 819th, 
the Red Horse, and what that might mean, and our 219th in terms 
of economies of scale. And like you, Secretary James, I am a 
protector of the taxpayer dollars. But there are two missions 
there that working together actually provide some synergy and 
economies of scale. So I hope that is considered as you take a 
look at locations of that unit down the road.
    I want to talk about the ICBM mission and thank you for all 
your help, Secretary James, as well as General Welsh. And that 
is the most important mission. In fact, my favorite commander 
coin, when I visit the base there, says: scaring the hell out 
of America's enemies since 1962. It is one of my favorite 
commander coins that I keep close about that important mission 
that airmen deliver up there at Malmstrom.
    And I applaud the administration for requesting strong 
funding, the $75 million for modernizing the ICBM arsenal. 
Could you provide your perspective on why the nuclear triad and 
our ICBM's in particular remain critical to deterring potential 
aggressors as we look at what is going on in Russia, a 
potential nuclear Iran, and other threats?

                      NUCLEAR FORCE MODERNIZATION

    Secretary James. Well, to start off, you already said it, 
Senator, but I will repeat. I think it is crucial to maintain a 
flexible nuclear triad. In other words, I have never been in 
favor of going down to just one leg to two legs. I like all 
three because of the flexibility, the responsiveness, and so 
forth that it provides.
    And as you point out, we are trying to double down our 
efforts now and make some needed changes. So this will not be a 
one-shot deal. It is not a 1-year thing. It needs to continue. 
And when I am talking about changes, I am talking about changes 
in the way we train and evaluate our people, changes in the 
incentives that we provide to our people. We are really trying 
to shift a culture, a culture away from what I will call one 
that had been quite micromanaged and very focused on test, 
test, test, evaluate, evaluate, evaluate to shift toward one 
which is one of continuous improvement. And again, all these 
take time. Modernization is part of that as well.
    So my figures suggest that we have about $5.6 billion more 
in this 5-year plan--so that is 2016 through the 5-year plan--
than what we told you, the Congress, a year ago. So this is 
just a reflection of how important we think it is. So we are 
going to keep at it.
    Senator Daines. Thank you, Secretary James.
    I think what concerned many of us is back in June of 2013, 
the President was at the Brandenburg Gate and announced he 
would like to see further reductions in our nuclear fleet 
beyond the existing START treaties. And I think many of us 
believe a peace through strength strategy, particularly in this 
world that is increasingly more dangerous, is the right 
approach, and our ICBMs and our nuclear mission is something 
that keeps the peace in this world. So thank you.
    I want to shift gears over to C-130s for a moment. And 
Senator Tester alluded to this as well.
    The National Commission on the Structure of the Air Force 
talked about the need to try to swim in similar lanes as it 
relates to between the active and Reserve components of trying 
to get to more of a standardized position on the 130s. What is 
the Air Force's plan to modernize the avionics to ensure 
viability past 2020? You talked about that a little bit where 
you are going to replace the Guard C-130 fleet I guess to 
ensure we are on the same page.
    General Welsh.

                       C-130 FLEET MODERNIZATION

    General Welsh. Senator, let me start by telling you that 73 
percent of our C-130 fleet is in the Guard and Reserve. We are 
not keeping a whole lot of them in the Active component. We 
have pushed more over the last couple years in the Guard and 
Reserve because they do the mission exceptionally well, and it 
is well suited to the Guard lifestyle, employer base, and 
ability to execute the mission.
    The team that is putting together the long-term plan is 
doing it together. We have got to modernize the fleet over 
time, all of our fleets, including the C-130s.
    There is a little bit of a misperception about how we got 
where we are. The evil Active Duty did not put all the old C-
130s in the Guard. That is not how this started. The C-130H 
models that are in the Guard now replace the E models. The 
oldest aircraft in the inventory at the time the C-130H model 
came in were in the Guard and the Reserve. So we populated the 
Guard and Reserve first with the H model. So for a number of 
years, all the new C-130s were in the Reserve component, and 
the Active Duty had the older E models. When we got the C-130J, 
we then replaced the oldest C-130s first. So, most of those 
were in the Active component.
    So now the goal is to continue this modernization cycle and 
bring the older aircraft up to speed. We have to do two things.

      C-130 AVIONICS MODERNIZATION TO ENSURE VIABILITY BEYOND 2020

    We have to get them qualified to fly both according to the 
FAA and ICAO, the International Civil Aviation Authority 
requirements. That is this first increment that we have to do 
by 2020 for the FAA and 2020 for the FAA and international 
folks.
    The second iteration is take those same airplanes and 
upgrade the aircraft, new glass cockpits, better avionics 
systems, a couple of key systems that need refurbishment and 
replacement. The question is how much can we afford to pay for 
each one of those modifications over time in order to do the 
whole fleet. And we are trying to do the entire fleet, not just 
a couple of units here, there, or any one component.
    Senator Daines. And we will have all the 130s then on the 
same architecture structure, avionics, so forth at that point?
    General Welsh. A single supply chain, single logistics 
trail as opposed to multiple going to the same squadrons.
    Senator Cochran. The time of the Senator has expired.
    Senator Daines. If that plan--if you could make that 
available to us, I would appreciate it if you could do it.
    General Welsh. Yes, sir.
    [The information follows:]
    The Air Force continues to work towards the safety, compliance and 
modernization of our legacy C-130 fleet. Because of the cost and time 
required to conduct the modernization of the legacy C-130 fleet, we 
believe, and Department of Defense has certified, that we need to fund 
the airspace compliance modifications first. The Air Force intends to 
follow the fiscal year 2015 National Defense Authorization Act guidance 
and we want to work with the Congress and our Total Force partners to 
develop an affordable C-130 modernization program.

    Senator Daines. Thank you very much.
    Senator Cochran. Are there other Senators who seek 
recognition? Senator Shelby.
    Senator Shelby. I have a couple. Mr. Chairman, thanks for 
your indulgence. I have a couple questions. I will try to be 
brief.
    Secretary James, in the fiscal year 2015 appropriations, 
Congress appropriated $220 million for a new rocket propulsion 
system to replace the RD-180. This year the President's 
budget--and we know that is just a proposal--requests $84 
million for that purpose. And reports indicate, however, that 
the Air Force intends to spend $500 million over the next 5 
years to develop the rocket engine replacement.
    It is also my understanding that developing an RD-180 
replacement engine and the associated launch vehicle and launch 
pad could cost anywhere from $1 billion to over $3 billion and 
take perhaps 7 to 10 years to develop.
    What are your thoughts on the cost and the timeline of 
developing the RD-180 replacement engine?

                       RD-180 REPLACEMENT ENGINE

    Secretary James. It is longer not shorter because, as I 
mentioned earlier, this is rocket science. It is a hard 
problem.
    Senator Shelby. It is. And sometimes you cannot rush it, 
can you?
    Secretary James. Well, you got to do it right. So I will 
tell you the technical experts would agree with the rough 
timelines that you just laid out. It is 6 to 8 years is what I 
have been advised for a newly designed engine and then an 
additional 1 to 2 years on top of that to be able to integrate 
the engine into the launch vehicle. These are obviously 
projections. We could maybe do----
    Senator Shelby. How important is this development? How 
important for the future?
    Secretary James. Well, it is very important for the future.
    Senator Shelby. Very important.
    Secretary James. Yes. It is very important. And the cost 
estimates--again, these are similar to the cost estimates that 
I have seen. I have seen $2 billion, but that is certainly well 
within the range that you just discussed.
    So I want you to know we are marching out to obligate and 
spend the money wisely that you all provided us last year, and 
as you point out, we are putting additional resources against 
this to take us down the path to be able to develop this 
domestic capability. And again, we want the competition just as 
you do.
    Senator Shelby. Absolutely.
    Secretary James, I will move to a little parochial question 
at the end. The Air Mobility Command's fielding of the KC-46A 
has displaced--we talked about that a little--four KC-135 pilot 
simulators. Movement of one KC-135 simulator was announced in 
December. It is my understanding the announcements of the 
movements of the second and third simulators are expected soon.

                           KC-135 SIMULATORS

    Secretary James, the 117th Aerial Tanker Refueling Wing 
happens to be located in Birmingham, Alabama. It is the only 
KC-135 total force associate unit that does not currently have 
a flight simulator. But given the Air Force's desire to 
relocate KC-135 simulators it is my understanding across the 
total force in order to maximize simulator utilization, it is 
my hope that the Air Force would strongly consider locating a 
simulator there with the 117th Aerial Tanker Refueling Wing.
    Can you get back with me on that?
    Secretary James. Yes, we will. I was about to say I may be 
the executive agent for space, but I would like to yield to the 
executive agent for KC-135 simulators on that question. But we 
will get back to you.
    General Welsh. Senator, as you know, your base is one of 
the ones that will and is being considered. We have three more 
simulators to allocate in this process. The first one has 
already been sent from McConnell AFB, Kansas to Altus AFB, 
Oklahoma to prepare for the KC-46--as the KC-135 training 
expands at Altus AFB. The other three will start March of this 
year, March of next year, and March 2017 is the timeline that 
we are on for reallocating. And I am absolutely certain that 
your base will be one of those considered.
    Senator Shelby. We are waiting on one. Thank you very much.
    General Welsh. Yes, sir.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    Are there further questions of the witness?
    Senator Daines. Just one more question, Mr. Chairman, if I 
could.
    Senator Cochran. The Senator is recognized.
    Senator Daines. Thank you.

                     POWDER RIVER TRAINING COMPLEX

    I want to just talk briefly just to engage you all on the 
Powder River training complex there in southeast Montana. We 
are working diligently right now with both the FAA and the Air 
Force here to make sure we have got a plan that works for 
everybody. I think its background is when the plan was first 
hatched, it was a pretty sleepy little corner of southeast 
Montana with a lot of mule deer, antelope, and so forth. Now, 
with the energy business, the Keystone Pipeline, once it is 
finally built, runs literally right through the complex through 
Baker, Montana, and there is an airport there. The inspection 
hours for pipelines are going from 500 hours last year to 2,500 
hours. These are flight hours coming out of the Baker Airport.
    So it is probably more of a comment/statement, that we 
could just engage on that--we will have a year down the road--
to make sure we got a plan that addresses the mission that we 
need to protect the B-1s at Ellsworth but also to protect the 
public safety there in southeast Montana. It is a very 
different environment than it was, I think, when that plan 
first began and evolved back in 2008.
    Secretary James. Okay. We will certainly obviously continue 
the ongoing dialogue. And, Senator, I think you know this. The 
state of play now is that we have given our materials over to 
the FAA. They now are doing their piece of this work. And our 
28th Bomb Wing representatives are meeting constantly with the 
folks out in Montana and the local officials and whatnot 
because, obviously, we want to get this worked out. As you 
said, it is a very important area for our large-scale bombing-
oriented exercises. So this is important to us as well, and we 
want to continue the dialogue. So we will keep working with you 
on it.
    Senator Daines. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Are there any other questions of the 
witness?
    In closing, we would like to thank our witnesses today at 
the hearing for your testimony and assistance to us. We are 
grateful for your service and we look forward to continuing a 
dialogue throughout the fiscal year 2016 appropriations 
process.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Deborah Lee James
              Questions Submitted by Senator Thad Cochran
                           launch competition
    Question. Please share with the Committee the specific changes that 
should be made to Section 1608. Please also provide the expected costs 
to the government of the need to shift from the Atlas V to the Delta IV 
Heavy for certain launches and explain why Section 1608 would result in 
a lack of true competition sought by the Air Force and the likely 
financial impact of such a loss.
    Answer. The Department of Defense (DOD) believes that the language 
in section 1608, Prohibition on contracting with Russian suppliers of 
rocket engines for the evolved expendable launch vehicle program, 
contained in the Carl Levin and Howard P. ``Buck'' McKeon National 
Defense Authorization Act for fiscal year 2015 (Pub.L. 113-291) 
(section 1608), will have the unintended consequence of limiting 
competition in the Evolved Expendable Launch Vehicle (EELV) Program 
unless the statutory language is modified.
    Section 1608(a) prohibits DOD from awarding or renewing a contract 
for space launch activities under the EELV Program if the contract is 
to be carried out with rocket engines that were designed or 
manufactured in the Russian Federation. Paragraph (c)(1)(B) of section 
1608 allows for an exception to the prohibition if prior to February 1, 
2014, the contractor had either fully paid for the rocket engines or 
had a legally binding commitment to fully pay for such rocket engines. 
As you know, the Air Force's current space launch provider, United 
Launch Alliance LLC (ULA) uses the Russian made RD-180 rocket engine in 
its Atlas V space vehicle. While section 1608(a) would not apply to 
ULA's use of RD-180s on its current 5 year contract with the Air Force, 
which is specifically exempted from section 1608(a), the prohibition 
would apply to ULA's use of RD-180 rocket engines in any future 
competition for space launch services outside of this 5 year contract, 
unless DOD is able to certify to the congressional defense committees 
that the RD-180 rocket engine that ULA proposes to use on the contract 
falls within the section 1608 (c)(1)(B) exceptions. DOD is concerned, 
based on the facts known to date, that ULA has only a limited supply of 
rocket engines that meet the section 1608(c)(1)(B) criteria. If so, we 
expect that ULA's ability to compete for future EELV contracts using 
its Atlas V space vehicle would be impacted.
    The DOD provided the Congress a proposal to amend Section 1608 of 
the Carl Levin and Howard P. ``Buck'' McKeon National Defense 
Authorization Act for fiscal year 2015 (Pub.L. 113-291). This proposal 
would amend the exception provision to permit a contractor to use a 
rocket engine designed or manufactured in the Russian Federation if 
prior to February 1, 2014, the contractor had fully paid for the rocket 
engine or had entered into a contract under which the Russian rocket 
engine would be procured. This amendment, would make available the 
additional engines ULA ordered on a 2012 contract which ULA has not yet 
fully paid their supplier for. Additionally, it recommends making 
national security interests as the only specific reason for a formal 
waiver.
    When ULA is no longer able to propose the use of the Atlas V launch 
vehicle, it will have to propose using the more expensive Delta IV 
launch vehicle, which has a domestically produced rocket engine. 
However, ULA has recently publicly announced that it will phase out 
production of the Delta IV vehicle in fiscal year 2018. The Department 
is still assessing the impact of ULA not being able to propose either 
the use of Atlas V or Delta IV launch vehicles, so the precise 
financial impact of a loss in competition has not been calculated. The 
Air Force is considering as part of its financial impact analysis, the 
work already done in the RD-180 Availability Risk Mitigation Study (aka 
``Mitchell study'').
                          stennis space center
    Question. Secretary James, as the Air Force begins to develop a new 
rocket engine to carry national security payloads to space, could you 
describe the ability of our test infrastructure to support such 
development? In particular, what's being done to ensure the test stand 
infrastructure at Stennis Space Center is being upgraded to support the 
work?
    Answer. The Air Force is working very closely with NASA's Stennis 
Space Center. We are investing over $25 million for test stand 
modifications at Stennis Space Center to demonstrate key technologies 
required for the development of a large liquid oxygen/hydrocarbon 
engine. As the Air Force moves forward, in partnership with industry, 
for a new launch capability to transition off the RD-180, the specific 
test capability required will depend on the solution(s) the Air Force 
competitively selects to invest in. The use of Federal Government test 
facilities, if any, will be determined at that time based on the 
selected solution(s).
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
                        icbm silo refurbishment
    Question. With the implementation of New START intercontinental 
ballistic missile (ICBM) reductions being spread equally among each of 
the missile wings, will the Air Force be implementing a silo 
refurbishment plan similar to depot maintenance schedules for aircraft?
    Answer. Yes, an ICBM programmed depot maintenance (PDM) program is 
in development in accordance with the Air Force's Aircraft and Missile 
Requirements (AMR) process. AMR is the Air Force process used to 
develop, validate and approve PDM requirements for all weapon systems. 
The ICBM PDM effort will leverage the 50 non-deployed launch facilities 
made available by New START directed reductions. Over a 5 year 
interval, the 50 non-deployed launch facilities will rotate through 
each missile complex until all launch facilities have completed the PDM 
cycle.
                    replacement of uh-1n helicopters
    Question. What is the timeline to replace the UH-1N helicopters 
responsible for intercontinental ballistic missile (ICBM) security?
    Answer. The Air Force is analyzing alternatives and developing 
courses of action to replace the UH-1N fleet, and has not yet approved 
an acquisition strategy or fielding timeline. The Air Force intends to 
stand-up a program office in fiscal year 2016, conduct a milestone 
decision, and award a contract for replacement of the UH-1N in fiscal 
year 2017.
                     powder river training complex
    Question. For the Powder River Training Complex, how would the 
aircraft communications system work between a general aviation pilot, a 
B-1 pilot, Ellsworth Air Force Base, and air traffic control to ensure 
the safe and timely departure or arrival of an emergency or other 
aircraft given priority on an instrument flight plan? What are the 
risks associated with possible miscommunications, and what is the Air 
Force doing to prevent this?
    Answer. In the record of decision on the Powder River Training 
Complex Environmental Impact Statement, the Air Force committed to 
creating a military aircraft recall system to extend Ellsworth Air 
Force Base's communication to military aircraft since the Federal 
Aviation Administration's (FAA) current communication capability does 
not allow for communications with aircraft at lower altitudes. One risk 
we are mitigating is that the Air Force communications recall system 
does not extend to civilian aircraft or the FAA's responsibility of air 
traffic control. Our plan is to be able to immediately recall military 
aircraft to a higher altitude where the aircraft will be able to 
communicate with the FAA controllers who, in turn, will be responsible 
for immediate separation of military aircraft from emergency aircraft 
or facilitate instrument arrivals/departures without undue delay. Other 
communications risks for air traffic control of aircraft remain the 
same as it is for all FAA operations within and immediately around the 
Powder River Training Complex.
                                 ______
                                 
            Question Submitted by Senator Richard J. Durbin
              wilmington, il, energy demonstration project
    Question. I am aware of an Air Force waste to energy demonstration 
project being conducted in Wilmington, Illinois. It is my understanding 
the Air Force intends to continue the project utilizing other waste 
materials and move the project to Dayton, Ohio. If the intent is to 
continue the project, why is it necessary to move it? It seems more 
cost effective to continue the project in its current location and 
capitalize on other waste streams from other nearby military 
installations. Finally, I would like to be kept apprised of the outcome 
of any further tests, and the Air Force's intent to further integrate 
any waste to energy upgrades pursuant to a successful demonstration 
outcome.
    Answer. The Air Force briefly explored the option of moving the 
waste-to-energy system in Wilmington, Illinois, from its current 
location to the University of Dayton Research Institute (UDRI) in 
Dayton, Ohio. The UDRI is opening a technical experience center that is 
designed to assess alternative technologies such as the system in 
Wilmington, Illinois, and would offer long-term evaluation of the 
system as well as use the system for educational purposes. However, in 
exploring this option, it became evident that it was more cost 
effective to leave the system at the current location. Additionally, 
moving the system would drive a delay in schedule that would be 
unacceptable.
    The Air Force is in the process of allocating funds to extend the 
current demonstration and complete the final 1 year system evaluation 
using base-representative municipal solid waste and potentially waste 
from aircraft depots. Once the demonstration project is completed, the 
Air Force will provide your office with the results.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                     operationally responsive space
    Question. Madame Secretary and General Welsh, can I be assured that 
the Air Force is committed to continuing the work done by ORS into the 
future, and can you please talk briefly about why this is important to 
the Air Force's mission and the warfighter?
    Answer. The Air Force is committed to continuing the work done by 
Operationally Responsive Space (ORS). We added $6.5 million in fiscal 
year 2016 to complete the ongoing ORS-4 and ORS-5 projects. 
Additionally, we've tasked Air Force Space Command to prepare an ORS 
resource plan to determine the appropriate funding levels for fiscal 
year 2017 and beyond. The Air Force recognizes the importance of the 
ORS office as it continues responding to urgent needs providing 
resilient, flexible, and responsive space capabilities to the 
warfighter; and continues developing enablers across the range of 
disciplines required to advance responsiveness of the space enterprise 
as a whole. We are also exploring using the ORS office to execute 
specific programs, but we have not made the final decision on which 
programs.
                   b61 service life extension program
    Question. New Mexico plays an important role ensuring that our 
Nation's nuclear deterrent remains safe, secure, and effective. I have 
noticed that the Air Force has made it a priority to increase research 
and development for the long range strike bomber. Can you tell me how 
the Air Force plans to take on this huge program and will you be 
working with the national labs to ensure its specifications are 
compatible with current life extension programs, including the B61 LEP?
    Will you work with this committee to provide the necessary 
classified briefings on this project to ensure there is appropriate 
oversight of this project?
    Answer. Yes. The Air Force is prepared to work with the Senate 
Appropriations Subcommittee on Defense to ensure it has access to all 
information required to assist with appropriate oversight of the B61 
Tailkit Assembly program.
    Question. New Mexico plays an important role ensuring that our 
Nation's nuclear deterrent remains safe, secure, and effective. I have 
noticed that the Air Force has made it a priority to increase research 
and development for the long range strike bomber. Can you tell me how 
the Air Force plans to take on this huge program and will you be 
working with the national labs to ensure its specifications are 
compatible with current life extension programs, including the B61 LEP?
    Can you please outline the Air Force's progress in developing the 
guided tail kit assembly for the B61 life extension project? Do you 
expect to finish this work on time, and what are the consequences to 
the overall B61 LEP if this funding line is not funded adequately?
    Answer. The Air Force's B61-12 Tailkit Assembly (TKA) is proceeding 
on schedule to meet the Nuclear Weapon Council approved B61-12 first 
production unit requirement of no later than the second quarter of 
fiscal year 2020. If the TKA program is not funded to the President's 
Budget request now or in the future, it would directly impact the 
overall B61-12 life extension program (LEP) and disconnect the Air 
Force effort from the Department of Energy's B61-12 warhead LEP effort.
    The National Nuclear Security Administration has identified the 
priority and timing to replace fielded B61 components. If the B61-12 
first production unit date were to be delayed, continuity of the 
nuclear weapons stockpile could not be assured, requiring the Air Force 
and National Nuclear Security Administration, through the Nuclear 
Weapons Council, to prepare detailed, resourced risk mitigation plans 
that would require specific congressional authorization and 
appropriation.
                              3d printing
    Question. 3D printing continues to be developed by all the branches 
as a tool for decreasing lead times and costs for production. It is 
also my understanding that the Air Force Research Laboratory at 
Kirtland Air Force Base has been doing some research to evaluate the 
use of 3D printing of cathodes for various electronics.
    My question is, do you think this technology will become more 
important for the Air Force in the future, and how can the Congress and 
the Air Force work together to ensure that technology transfer and 
partnerships help develop the growth of this new industry?
    Answer. Additive manufacturing technologies and 3-D printing offer 
great potential to the Air Force and aerospace community. Key benefits 
include reduced lead time and cost for small production runs, mass 
customization, enabled complex geometry, and reduced weight via part 
consolidation and material substitution. In the future, these benefits 
could result in reduced sustainment burden and improved system 
availability, affordability, and energy efficiency. The aerospace 
community is actively evaluating a variety of implementation paths in 
tooling, prototypes, design iteration, and production parts. Air Force 
additive manufacturing opportunities include functionally-embedded 
structures and electronics, expanded geometric complexity, integrated 
power, and human system and cognition.
    To fully realize the benefits of additive manufacturing, there are 
several technical challenges that are being addressed. These key 
challenges include consistent material quality and properties, 
undefined inspection protocols, standardized process controls, and 
post-processing requirements. Aspects of material, process and 
component qualification are required for nearly every implementation 
path. The Air Force has several in-house and external research 
activities focused on these challenges.
    Partnering with industry to develop, transfer, and leverage 
additive manufacturing technologies will be important in growing this 
new industry for both defense and commercial applications. The Air 
Force is actively engaged with several partnerships focused on 
accelerating the adoption of additive manufacturing and 3-D printing. 
Examples include: the National Additive Manufacturing Innovation 
Institute; the Flexible Hybrid Electronics Manufacturing Innovation 
Institute; the NanoBio Manufacturing Consortium; and various projects 
with the Metals Affordability Initiative, Small Business Innovative 
Research program, and the Rapid Innovation Program.
                   sequestration and isr capabilities
    Question. Your statement mentioned that the Air Force is lacking 
the capability it needs to fulfill all the intel, surveillance, and 
reconnaissance demands it is receiving. Along those lines, I am glad to 
see that the Air Force has increased its request for MQ-9s from 24 in 
fiscal year 2015 to 29 in fiscal year 2016. Your budget also states 
that if sequestration kicks in, that the total procurement would 
decrease to 20. If this happens, how would this impact the Air Force's 
ISR capabilities, as well as future basing at bases such as Holloman 
and Cannon?
    Answer. Under sequestration, the MQ-9 program of record is reduced 
from 60 to 50 MQ-9 combat air patrols (CAPs), a 17 percent reduction in 
medium altitude intelligence, surveillance, and reconnaissance 
capabilities. Therefore, we would expect a slight decrease in the 
formal training production requirement at Holloman AFB, NM. However, 
Cannon AFB, NM, will still increase its operational remotely piloted 
aircraft capacity from 8 currently to 10, MQ-9 CAPs by fiscal year 
2017.
                      holloman afb and white sands
    Question. Holloman Air Force Base uses airspace at White Sands 
Missile Range. How would you and the commanders at Holloman Air Force 
Base characterize the efforts to coordinate airspace coordination 
between Holloman and White Sands, and what could be done to improve 
airspace coordination and scheduling to ensure that our F-16 pilots 
receive the best and most efficient training possible?
    Answer. The Air Force would characterize the relationship between 
White Sands Missile Range (WSMR) and Holloman Air Force Base as good. 
In 2014, we formalized this relationship by signing a Memorandum of 
Agreement between the two organizations. The memorandum reinforces the 
Office of the Secretary of Defense's Major Range and Test Facility Base 
policy that test activities at White Sands Missile Range are a higher 
priority than the training activities at Holloman AFB, NM.
    As far as what could be done to improve coordination and 
scheduling, aligning the Army's safety restrictions and risk mitigation 
measures with those of the Air Force would reduce airspace impacts on 
quality aircrew training (currently WSMR test risk mitigation measures 
used by the Army are much more restrictive than those used by the Air 
Force). Additionally, an evaluation of airspace use by an external 
agency that incorporates inputs from all WSMR users would highlight the 
areas that need to be addressed to maximize airspace utilization and 
flexibility for both the test and training missions. Holloman AFB has 
also reorganized the internal lateral and vertical dimensions of its 
training airspace and modified its airspace control procedures to 
improve overall efficiency and training effectiveness. To improve 
airspace coordination and scheduling procedures, we have been 
simultaneously working with our Army partners. As an example, we are 
considering using the coordination procedures employed at the Nevada 
Test and Training Range. Also, with Air Force training continuing to 
increase at Holloman AFB, we are currently conducting an analysis to 
determine if the current airspace is adequately configured and sized to 
support our future range and airspace needs.
                           federal it reform
    Question. Describe the role of the Air Force's Chief Information 
Officer (CIO) in the development and oversight of the IT budget for the 
Air Force. How is the CIO involved in the decision to make an IT 
investment, determine its scope, oversee its contract, and oversee 
continued operation and maintenance?
    Answer. The Air Force Chief Information Officer (SAF/CIO A6) has an 
important role in the development and oversight of the Air Force 
information technology (IT) budget. There are several key activities 
where the SAF/CIO A6 executes authority and oversight of IT investments 
and thus impacts budgetary outcomes. For example, the SAF/CIO A6 
reviews business systems for compliance, in coordination with the 
Office of the Deputy Chief Management Officer (SAF/US(M)), which 
manages Defense Business Systems IT certification of organizational 
execution plans. This process increases CIO visibility into IT 
investment compliance status across the Air Force IT portfolio.
    Through our Air Force IT Governance process, SAF/CIO A6 provides 
input into the Air Force's Program Guidance Memorandum. In addition, 
SAF/CIO A6 coordinates with Air Force Space Command to develop the 
Program Objective Memorandum and executes cyberspace and enterprise IT 
investments. This coordination enables programming and budgeting 
alignment of CIO policy and strategy with operational execution.
    SAF/CIO A6 also participates in program management decisions and 
milestone reviews with the Assistant Secretary of the Air Force for 
Acquisition. This enables shaping of contracts for capabilities under 
development. Finally, SAF/CIO A6 is developing and implementing a 
deliberate budget and investment review and approval process, within 
existing corporate processes, to better integrate cyberspace 
requirements and investments across all mission areas, under direction 
from the Undersecretary of the Air Force and the Vice Chief of Staff of 
the Air Force.
    Question. Describe the existing authorities, organizational 
structure, and reporting relationship of the Chief Information Officer. 
Note and explain any variance from that prescribed in the newly-enacted 
Federal Information Technology and Acquisition Reform Act of 2014 
(FITARA, PL 113-291) for the above.
    Answer. The existing authorities, organizational structure, and 
reporting relationship of the Chief Information Officer are spelled out 
in Headquarters Air Force Mission Directive 1 and Headquarters Air 
Force Mission Directive 1-26 pursuant to 10 USC Sec. 2223, 40 USC 
Sec. 11315, and 44 USC Sec. Sec. 3506 and 3544.
    The authorities spelled out in Headquarters Air Force Mission 
Directive 1-26 are in line with the newly enacted Federal Information 
Technology (IT) and Acquisition Reform Act of 2014. SAF/CIO A6 in 
partnership with Office of the Deputy Chief Management Officer and the 
Secretary of the Air Force for Acquisition inform and shape information 
technology investments through information technology governance. 
Through our on-going development of a capital planning and investment 
control process we continue to shape the Chief Information Officer's 
involvement in information technology investment oversight.
    Question. What formal or informal mechanisms exist in the Air Force 
to ensure coordination and alignment within the CXO community (i.e., 
the Chief Information Officer, the Chief Acquisition Officer, the Chief 
Finance Officer, the Chief Human Capital Officer, and so on)?
    Answer. In March 2012, the Secretary of the Air Force established a 
formal mechanism, the Information Technology Governance Executive Board 
(chaired by the Air Force Chief Information Officer) to establish Air 
Force business practices and capabilities to securely and effectively 
deliver information technology to mission and business users. 
Membership is comprised of all the Air Force entities with statutory 
responsibility and decisionmaking for information technology lifecycle 
management.
    The senior leadership team includes the following:

  --SAF/US(M)--Director, Business Transformation and Deputy Chief 
        Management Officer
  --SAF/AQ--Assistant Secretary of the Air Force for Acquisition
  --SAF/FM--Assistant Secretary of the Air Force for Financial 
        Management and Comptroller
  --SAF/CIO A6--Assistant Secretary of the Air Force for Information 
        Dominance & Chief Information Officer
  --AF/A3--Deputy Chief of Staff for Operations
  --AFSPC/CV--Vice Commander, Air Force Space Command
  --PEO C4--Program Executive Officer for Command, Control, 
        Communications and Information Networks

    Questions. According to the Office Personnel Management, 46 percent 
of the more than 80,000 Federal IT Workers are 50 years of age or 
older, and more than 10 percent are 60 or older. Just 4 percent of the 
Federal IT workforce is under 30 years of age. Does the Air Force have 
such demographic imbalances? How is it addressing them?
    Answer. The Air Force information technology (IT) civilian 
workforce representation is commensurate with their comparative Federal 
workforce, as shown below.
Air Force IT Workforce:
    50 or older--55.7%
    60 or older--13.8%
    30 or under--4.2%

    We recognize this age imbalance, and strive to continually evolve 
our workforce to ensure competitive advantage in the rapidly evolving 
information environment. Force renewal programs like Palace Acquire 
focus on hiring recent college graduates into upwardly mobile GS-7/9/11 
positions. Our cyber force managers are focused on managing the 
workforce to ensure long-term career progression for past, present and 
future employees in compliance with mission needs and Federal guidance 
(age discrimination in the Employment Act of 1967).
    The National Defense Authorization Act of 2006 encourages 
continuance of service for our veterans in a civilian capacity (through 
veteran's preference). We have noted that a large percentage of those 
who benefit from these measures are typically around age 30, which 
serves to infuse the most under-represented area and improve the 
viability of our future workforce.
    Question. How much of the Air Force's budget goes to Demonstration, 
Modernization, and Enhancement of IT systems as opposed to supporting 
existing and ongoing programs and infrastructure? How has this changed 
in the last 5 years?
    Answer. The development, modernization, and enhancement costs for 
major Air Force defense business systems are approximately $361 million 
in fiscal year 2015, $461 million in fiscal year 2014, and $282 million 
in fiscal year 2013. Previous year comparisons can be found in the 
table below:

----------------------------------------------------------------------------------------------------------------
                                                                   Demonstration,
                                                                  Modernization and      Support of Existing and
                                                                     Enhancement            ongoing programs
----------------------------------------------------------------------------------------------------------------
2015........................................................             $361 million              $501 million
2014........................................................             $461 million              $514 million
2013........................................................             $282 million              $559 million
----------------------------------------------------------------------------------------------------------------

    We will continue to improve our operational assessments in our 
capital planning and investment control process to provide us with 
visibility into demonstration, modernization and enhancement spending 
in other mission areas.
    Question. What are the 10 highest priority IT investment projects 
that are under development in the Air Force? Of these, which ones are 
being developed using an ``agile'' or incremental approach, such as 
delivering working functionality in smaller increments and completing 
initial deployment to end-users in short, 6-month timeframes?
    Answer. The Air Force has a mature process to review and determine 
priority of information technology (IT) investment projects for defense 
business mission area. The Assistant Secretary of the Air Force for 
Information Dominance & Chief Information Officer (SAF/CIO A6) 
participates in the Director, Business Transformation and Deputy Chief 
Management Officer (SAF/US(M)) Enterprise Senior Working Group to 
review defense business systems IT projects. Included below is a list 
of priority IT investment projects based upon the value risk score card 
that assesses systems within the business mission area portfolio that 
are of high value based upon contribution to mission, business case 
justification, functional alignment, programmatic soundness.

------------------------------------------------------------------------
             Investment Acronym                  Investment Long Title
------------------------------------------------------------------------
JIE/JRSS....................................  Joint Information
                                               Environment/Joint
                                               Regional Security Stacks
                                               (Cybersecurity)
AOC.........................................  Air Operations Center
NC3.........................................  Nuclear Command, Control,
                                               and Communications System
AFIPPS......................................  Air Force Integrated
                                               Personnel and Pay System
NEXGEN......................................  CE NexGen IT
CAS.........................................  Combat Ammunition System
ESCAPE......................................  Enterprise Supply Chain
                                               Analysis Planning and
                                               Execution
MROi........................................  Maintenance Repair and
                                               Overhaul initiative
PLMI........................................  Product Lifecycle
                                               Management Initiative
DEAMS.......................................  Defense Enterprise
                                               Accounting & Management
                                               System
------------------------------------------------------------------------

    All IT investments listed above are applying an incremental 
approach delivering working functionality in smaller increments and 
completing initial deployment in shorter timeframes.
    Question. To ensure that steady state investments continue to meet 
agency needs, OMB has a longstanding policy for agencies to annually 
review, evaluate, and report on their legacy IT infrastructure through 
Operational Assessments. What Operational Assessments have you 
conducted and what were the results?
    Answer. The Assistant Secretary of the Air Force for Information 
Dominance & Chief Information Officer (SAF/CIO A6) in conjunction with 
the Assistant Secretary of the Air Force for Acquisitions (SAF/AQ) 
conducts operational assessments annually on Air Force systems. These 
operational assessments rate systems against established cost, schedule 
and performance goals along with alignment to mission needs and 
strategies, value and duplication overlapping with other investments. 
The results provide senior leadership visibility into the status of IT 
investments on the Federal IT Dashboard.
    The SAF/CIO A6 has also initiated an investment review process 
which will conduct an in depth review on IT initiatives. In 
coordination with SAF/AQ, major automated information systems are 
assessed several times in compliance with the Clinger-Cohen Act during 
their development lifecycle. These reviews further assess cost, 
schedule, performance and compliance of an IT investment leading to a 
SAF/CIO A6 approved Clinger-Cohen Act memorandum to the program. The 
Director, Business Transformation and Deputy Chief Management Officer 
(SAF/US(M)) annually reviews and pre-certifies IT investments in the 
business mission area. These annual reviews assess value and 
duplication among other SAF/CIO A6 compliance areas.
    Question. What are the 10 oldest IT systems or infrastructures in 
the Air Force? How old are they? Would it be cost-effective to replace 
them with newer IT investments?
    Answer. Following is a list of the 10 oldest information technology 
systems in the Air Force.

------------------------------------------------------------------------
         Investment Name                Acronym           Start Date
------------------------------------------------------------------------
 1. Integrated Logistics Systems- ILS-S.............  1964-06-01
 Supply.
 2. Item Management Control       IMCS..............  1968-02-12
 System.
 3. Aircraft Structural           ASIMIS............  1971-07-01
 Integrity Management
 Information System.
 4. Acquisition and Due In        ADIS..............  1972-09-25
 System.
 5. Reparability Forecast Model   RFM...............  1977-08-01
 System.
 6. Depot Maintenance Workload    DMWPCS............  1977-10-31
 Planning and Control System.
 7. Personnel Budget and          PBASWeb...........  1980-06-30
 Analysis System Web.
 8. MISTR Requirements            MISTR.............  1981-11-01
 Scheduling and Analysis System.
 9. Logistics Management Data     LMDB..............  1982-01-31
 Bank.
10. Comprehensive Engine          CEMS..............  1983-01-01
 Management System.
------------------------------------------------------------------------

    ILS-S, IMCS, ASIMIS, and LMDB are systems scheduled to be replaced 
under the Logistics IT (Log IT) initiative in 2020. ADIS will migrate 
to the Contracting Information Technology (ConIT) system in 2016. There 
are currently no plans to replace or terminate RFM, DMWPCS, PBASWeb, 
MISTR, and CEMS.
    Question. How does the Air Force's IT governance process allow for 
the Air Force to terminate or ``off ramp'' IT investments that are 
critically over budget, over schedule, or failing to meet performance 
goals? Similarly, how does the Air Force's IT governance process allow 
for the Air Force to replace or ``on-ramp'' new solutions after 
terminating a failing IT investment?
    Answer. There are several key activities where the Assistant 
Secretary of the Air Force for Information Dominance & Chief 
Information Officer (SAF/CIO A6) executes authority and oversight of 
information technology (IT) investments. For example, the SAF/CIO A6 
has a mature process to review business systems for compliance in 
coordination with the Director, Business Transformation and Deputy 
Chief Management Officer (SAF/US(M)), who manages Defense Business 
Systems IT certification of organizational execution plans.
    SAF/CIO A6 participation in the Enterprise Senior Working Group 
increases CIO visibility into IT investment compliance status across 
the Air Force IT Portfolio. Air Force CIO also participates in program 
management decisions and milestone reviews with the Assistant Secretary 
of the Air Force for Acquisition (SAF/AQ). These reviews can result in 
recommendations to the milestone decision authority to continue or 
terminate an IT program.
    Additionally, SAF/CIO A6 in conjunction with SAF/AQ conducts 
assessments annually of AF Exhibit 300 systems against cost, schedule 
and performance goals along with alignment to mission needs and 
strategies. The results of these reviews provide senior leadership with 
visibility into the status of IT investments on the Federal IT 
Dashboard.
    Finally, the Air Force IT Governance directive outlines the Service 
Acquisition Executive's role for overseeing Air Force IT program 
execution and providing acquisition policy, cost, risk, schedule, and 
performance inputs to the Information Technology Governance Executive 
Board.
    Question. What IT projects has the Air Force decommissioned in the 
last year? What are the Air Force's plans to decommission IT projects 
this year?
    Answer. The Air Force decommissioned 28 systems in calendar year 
2014. The Air Force plans to decommission 15 systems in calendar year 
2015.
    The Air Force is implementing strategies consistent with the Office 
of Management and Budget direction for streamlining IT investments. On-
going initiatives include application rationalization and data center 
consolidation. Furthermore, SAF/CIO A6 is developing a capital planning 
and investment control process to improve the CIO's involvement in IT 
investment oversight.
    28 Systems decommissioned in 2014:

------------------------------------------------------------------------
                   Acronym                          Investment Name
------------------------------------------------------------------------
AFRISS-R....................................  Air Force Recruiting
                                               Information Support
                                               System--Reserve
AFTC-GIS....................................  AFTC--Geographic
                                               Information System
ARIR........................................  Administrative Record
                                               Information Repository
                                               Database
AV..........................................  Asset Visibility
BAS.........................................  Bowling Automation System
BuyIT.......................................  Buy Information Technology
CARS........................................  Consolidated Analysis and
                                               Reporting System
DDC.........................................  DDC (Niagra) Systems
DDWG........................................  DLA Customer Concerns
DMSMS.......................................  Diminishing Manufacturing
                                               Sources and Material
                                               Shortages Help Desk
eCOMET......................................  Energy Condition
                                               Management Estimation
                                               Technology
EDITT.......................................  Environmental Decision
                                               Information Tracking Tool
FHATS.......................................  Funded Hours Allocation
                                               Tracking System
GVISION.....................................  Geospatial Visual
                                               Information System
                                               Integrated on the Network
ILDPA.......................................  Intermediate Leader
                                               Development Program
                                               Alexsys
JCALS.......................................  Joint Computer-aided
                                               Acquisition and Logistics
                                               Support
LASS........................................  Logistics Automated
                                               Support System
LGFNOTES1...................................  LGF Lotus Notes Client
                                               Access
LWT.........................................  LGF Web Tools
PHOENIX-RAFB................................  Phoenix-RAFB
PR Tracker..................................  PR Tracking App V2
RES.........................................  Recreation Enterprise
                                               System
SISS........................................  Sports Injury Surveillance
                                               System
STES........................................  Scientific and Technical
                                               Enterprise System
WR-CEEMS....................................  WR-Civil Engineer and
                                               Environmental Management
                                               System
WR-PETS.....................................  WR-Program Execution
                                               Tracking System
WR-SIP Tool.................................  WR-Self Inspection Process
                                               Tool
WRS-MIS.....................................  AFRL Wright Research Site-
                                               Management Information
                                               System
------------------------------------------------------------------------

    15 Systems planned for decommissioning in 2015:

------------------------------------------------------------------------
                   Acronym                          Investment Name
------------------------------------------------------------------------
309ITS......................................  309 SMXG Information
                                               Technology System
AEIS........................................  AFSC Enterprise
                                               Information System
APOSD.......................................  Automated Point of Sale
                                               Device
APWS........................................  AFCEE Public Web Server
ASHS........................................  Assessment System for
                                               Hazard Surveys
DSUR........................................  Data System User
                                               Repository
EONet/FAMNet................................  Equal Opportunity Network/
                                               Family Net
EVTAT.......................................  Earned Value Time and
                                               Tracking
HMMS........................................  Depot Maintenance
                                               Hazardous Material
                                               Management System
IMPS........................................  Integrated Military
                                               Personnel System
IOMS--PIMS..................................  IOMS Program Information
                                               Management System
JSF WISE....................................  Joint Strike Fighter Web-
                                               based Information System
                                               for the Enterprise
OLVIMS Legacy...............................  On Line Vehicle
                                               Interactive Management
                                               System Legacy
SITE........................................  Single Interface for
                                               Timing Entry
TAS.........................................  Tool Accountability System
------------------------------------------------------------------------

    Question. The newly-enacted Federal Information Technology and 
Acquisition Reform Act of 2014 (FITARA, PL 113-291) directs CIOs to 
conduct annual reviews of their Air Force's IT portfolio. Please 
describe the Air Force's efforts to identify and reduce wasteful, low-
value or duplicative information technology (IT) investments as part of 
these portfolio reviews.
    Answer. The Air Force is implementing strategies consistent with 
Office of Management and Budget direction for streamlining IT 
investments. On-going initiatives include application rationalization 
and data center consolidation. Furthermore, the Assistant Secretary of 
the Air Force for Information Dominance & Chief Information Officer 
(SAF/CIO A6) is developing a capital planning and investment control 
process to improve the CIO's involvement in IT investment oversight. In 
support of its statutory authority, SAF/CIO A6 conducts IT investment 
reviews in areas such as the Federal IT Dashboard initiative, Clinger 
Cohen Act compliance, and IT budget reporting. SAF/CIO A6 also partners 
with Director, Business Transformation and Deputy Chief Management 
Officer (SAF/US(M)) to conduct annual reviews of defense business 
systems.
    Question. In 2011, the Office of Management and Budget (OMB) issued 
a ``Cloud First'' policy that required agency Chief Information 
Officers to implement a cloud-based service whenever there was a 
secure, reliable, and cost-effective option. How many of the Air 
Force's IT investments are cloud-based services (Infrastructure as a 
Service, Platform as a Service, Software as a Service, etc.)? What 
percentage of the Air Force's overall IT investments are cloud-based 
services? How has this changed since 2011?
    Answer. As we move toward cloud-base services, we are maturing our 
metrics to capture Air Force investments in this area. We estimate that 
less than 5 percent of our overall IT investments are currently cloud-
based. In 2011, the Air Force had no cloud presence. At this time, the 
Air Force has some programs in the MilCloud, including Doctrine Next 
and the System Metric & Reporting Tool (SMART). We are also fielding 
major enterprise resource planning systems such as the Maintenance, 
Repair, and Overhaul Initiative in the MilCloud. Moving forward, the 
Air Force has embraced a commodity vs. ownership mindset, looking to 
field in the cloud whenever possible. Working with the Program 
Executive Officer for Command, Control, Communications and Information 
Networks, the Air Force has laid out a roadmap for greater use of the 
MilCloud, developing repeatable processes and data standards allowing 
for wide-scale adoption of the cloud across the Air Force. Following 
successful testing of these processes and as data security and privacy 
requirements are met, the Air Force plans to begin its move to the 
commercial cloud as quickly as possible. The Air Force is also 
partnering with the Department of Defense CIO and the Defense 
Information Systems Agency to develop the acquisitions and contract 
language necessary to purchase commercial cloud offerings.
    Question. Provide short summaries of three recent IT program 
successes--projects that were delivered on time, within budget, and 
delivered the promised functionality and benefits to the end user. How 
does the Air Force define ``success'' in IT program management? What 
``best practices'' have emerged and been adopted from these recent IT 
program successes? What have proven to be the most significant barriers 
encountered to more common or frequent IT program successes?
    Answer. Three recent IT program successes--projects that were 
delivered on time, within budget, and delivered the promised 
functionality and benefits to the end user are:
    (1) Base Information Transport Infrastructure (BITI):
    BITI delivers the Air Force cyberspace network and integrated 
infrastructure for 178 Total Force (active duty, Reserve, and Guard) 
bases. Air Force installations did not have the organic expertise 
inherent to the BITI program office to realize tech refresh economies 
of scale. The BITI program office saved $6 million by establishing a 
predictable, prioritized servicing list and steering Air Force 
installations to less expensive, non-backbone cyber equipment. Focusing 
bases on less expensive, non-backbone cyber equipment resulted in 
substantial savings by averting duplicate spending.
    (2) Defense Enterprise Accounting & Management System (DEAMS):
    DEAMS is a financial management initiative transforming business 
and financial management processes and systems to provide accurate, 
reliable, and timely business information to support fiscal year 2017 
Financial Improvement Audit Readiness (FIAR) deadline specified in the 
fiscal year 2010 National Defense Authorization Act , effective 
business decisionmaking for U.S. Transportation Command (USTRANSCOM), 
Defense Finance and Accounting Service (DFAS) and the U.S. Air Force. 
DEAMS achieved Milestone C on February 23, 2015 by the Milestone 
Decision Authority, Office of the Undersecretary of Defense for 
Acquisition, Technology, and Logistics (OUSD(AT&L)). DEAMS is 
successfully being used today by over 7,000 users at over 40 Air Force, 
DFAS, and USTRANSCOM locations with additional deployments to another 
2,300 users and 40 locations scheduled for June 2015. DEAMS is also 
aggressively pursuing completion of Initial Operational Test and 
Evaluation prior to a Full Deployment Decision by the Milestone 
Decision Authority in August 2015.
    (3) Enhanced Technical Information System (ETIMS):
    ETIMS is a technical order (TO) management system that provides an 
Air Force TO repository enabling electronic viewing of documents for 
over 137,000 users Air Force-wide. ETIMS overhauled an antiquated 
process of managing paper documents with an improved architecture using 
digital data enhancements delivering major reductions in space and 
personnel requirements, improved TO accuracy with quicker access, and 
improved aircraft maintenance turn-time.
    Question. How does the Air Force define ``success'' in IT program 
management?
    Answer. The Air Force defines success for all acquisition programs 
as delivering effective and suitable capability to the warfighter.
    Question. What ``best practices'' have emerged and been adopted 
from these recent IT program successes?
    Answer. (BITI): Product support was included in the main BITI 
contract allowing competition among all offers. Fostering competition 
for product support activities drove license and support costs down 30 
percent over the previous year.
    (DEAMS): ``Should Cost'' initiatives developed within the DEAMS 
program cited by the OUSD (AT&L) as examples of what the Department 
should be doing as part of Better Buying Power 3.0. Developed ``Should 
Cost'' software metrics requirements to track contractor productivity; 
estimated potential savings of $15 million.
    (ETIMS): The program management office focused on the best 
integration strategy that would meet immediate user needs and be 
successful under tight time and budget constraints. The effort 
ultimately completed under budget and met all major milestones on time. 
Additionally, shutting down a geographically distributed client-server 
system saved the Air Force $4 million per year in sustainment costs. 
Interface partners were tightly coupled throughout development and test 
activities providing programmatic and cost efficiencies.
    Question. What have proven to be the most significant barriers 
encountered to more common or frequent IT program successes?
    Answer. Frequently changing/overlapping, and in some cases, 
conflicting guidance, over the past 10 years, for IT acquisition has 
caused confusion, rework and unnecessary duplication. Examples include 
Title 10 USC Code 2222, OUSD(AT&L) Business Capability Lifecycle, 
OSD(DCMO) Business Enterprise Architecture (BEA), DOD 5000 and the Air 
Force's System and Development and Delivery Plan. Each guidance 
mechanism could and was employed during several IT program's lifecycle, 
forcing the program office to comply with all above directives in 
concert with each other.
    Question. Terry Halverson, the DOD Chief Information Officer (CIO), 
has outlined a vision for DOD use of cloud computing that empowers the 
military departments and components to procure their own cloud 
computing solutions. How will the implementation of this transition to 
cloud computing be rationalized across the Air Force to ensure that 
common standards, data portability and other enterprise-wide issues are 
properly managed and addressed?
    Answer. The Air Force is focused on implementing standards for the 
cloud through the adoption of a common architecture for our systems. 
The target baseline specifies the standards, protocols, guidelines and 
implementation constraints for the future state of the Air Force global 
information grid (AF-GIG) infrastructure. The target baseline informs 
the development of the implementation baseline, which is the baseline 
of acquisition selected products and their informed/allowed 
configurations that implement the architecture, standards, protocols, 
and guidelines specified in the target baseline.
    Following this architecture, the Air Force currently has some 
programs in the MilCloud, including Doctrine Next and System Metric & 
Reporting Tool (SMART). The Air Force is fielding the Common Computing 
Environment (CCE), a collection of common application services (e.g., 
PKI authentication). Having a CCE allows developers to modify their 
systems to one standard, regardless of the hosting location. The Air 
Force is partnering with the Department of Defense CIO and the Defense 
Information Systems Agency to develop the acquisition and contract 
language necessary to purchase commercial cloud offerings. At the same 
time, we have stood up a Managed Services Office as the Air Force's 
technical broker, facilitating the effort to move Air Force 
applications to the cloud.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
                              asia-pacific
    Question. The Quadrennial Defense Review emphasized the importance 
of theatre security cooperation in the Asia Pacific to support the 
Defense Strategic Guidance. For our partners and allies, training 
exercises are an indicator of our commitment to the region.
    Could you please explain the Air Force's priorities for theatre 
engagement and how you plan to develop those relationships with our 
partners and allies in the Asia Pacific?
    Answer. The Air Force supports the U.S. Pacific Command (USPACOM) 
Commander's security cooperation priorities. The Air Force has a 
prioritized list of desired long-term partner air force capabilities 
that, if developed, will assist the Air Force's ability to support 
combatant commander mission requirements. The priority capabilities are 
mobility; intelligence, surveillance and reconnaissance; air 
superiority; command & control; and space superiority. The Assistant 
Secretary of the Air Force for International Affairs (SAF/IA) works 
closely with USPACOM, Pacific Air Forces (PACAF), U.S. Embassy country 
teams, and international partners in the day-to-day planning and 
execution of the security cooperation activities that sustain the 
relationships and build the partner's capacity. The deliberate planning 
and resourcing of these activities is accomplished during annual 
meetings between SAF/IA, USPACOM, PACAF, and country teams at PACAF's 
Capability Development working group meeting and USPACOM's Security 
Cooperation working group.
    Question. The Quadrennial Defense Review emphasized the importance 
of theatre security cooperation in the Asia Pacific to support the 
Defense Strategic Guidance. For our partners and allies, training 
exercises are an indicator of our commitment to the region.
    Are there any interoperability challenges when it comes to training 
with our partners and allies, including any risks to straining their 
capabilities?
    Answer. We have not identified any major interoperability 
challenges with our partners and allies in the Pacific. Fiscal 
realities, manpower/capability constraints, and sometimes divergent 
capability development plans continue to be the key challenges that we 
face. Pacific Air Forces goes to great lengths to mitigate any strain 
our exercises or bi-/multi-lateral training activities might place on 
our partners' and allies' capabilities.
    When we identify ``engagement fatigue'' caused by multiple events 
sponsored by different U.S. service components at different times, we 
take action to alleviate any perceived pressure. Historically, we have 
shifted event execution dates, gone to biennial versus annual execution 
plans, reduced the scale and scope of the event(s), and/or combined 
combatant command and/or Service component exercises to reduce 
engagement fatigue. Disclosure restrictions sometimes limit us from 
maximizing training opportunities with our partners. While perhaps not 
an ``interoperability issue,'' non-English speaking partners sometimes 
have limited English language skills, which has also impacted our 
training effectiveness.
    Question. The Quadrennial Defense Review emphasized the importance 
of theatre security cooperation in the Asia Pacific to support the 
Defense Strategic Guidance. For our partners and allies, training 
exercises are an indicator of our commitment to the region.
    If so, are there other opportunities to support regional engagement 
goals through the Air National Guard to support our partners and allies 
without stressing their current capabilities?
    Answer. There are a number of ways in which the Air National Guard 
is able to support regional engagement in the Asia-Pacific region 
without stressing our partner's capabilities. The following are 
examples as to how Building Partnerships and the State Partnership 
Program contributes to the eight partnerships we currently retain in 
the Asia-Pacific region and how we are able to enhance security 
cooperation around the world without stressing our partners resources 
via these programs.
    Military Training Teams are conventional forces used to train and 
mentor foreign forces for a short period of time, usually a week. These 
teams mentor command and staff at various levels during overseas 
deployment training and deployment. Mobile Support Advisory Squadrons 
are a key component of the Air Force support to the Department of 
Defense building partner capacity efforts. Through mentoring, advising 
and instructing, partner nation's air forces, Mobile Support Advisory 
Squadrons help achieve the goal set by the Secretary of Defense to 
enable partners to share ``the costs and responsibilities of global 
leadership. Senior leader engagement provides general officer level 
engagement with partner nation military and civic leaders.
    Military Reserve Exchange Program focuses on exchanges between the 
United States and the nations of Germany, Denmark, Estonia and the 
United Kingdom. The program entails a one for one exchange of 
individuals between a U.S. military unit and a unit from one of the 
participating countries. This is funded in the U.S. by the unit which 
the Soldier or Airman belongs to. The exchanges are two weeks in length 
and directly expose individuals from both the U.S. and foreign nation 
to the others' culture and military. This program could be expanded to 
the Asia-Pacific region as well.
    The Air National Guard Building Partnerships program is an 
excellent way of supporting regional engagement in the Asia-Pacific 
region without stressing our partner's capabilities. Exchanges usually 
happen when a nation purchases defense products made in the United 
States and opens a foreign military sales case through the U.S. 
Government. For example, if a nation purchases aircraft through this 
program, the training of pilots from that nation is typically included 
in the cost of the product and often the Air National Guard provides 
that training.
    Question. The Budget Control Act and sequestration have constrained 
our ability to adequately resource the Asia-Pacific rebalance and meet 
our regional security commitments. And while we work to permanently 
remove the threat of sequester in fiscal year 2016, it is still a 
looming challenge to our ability to adequately resource the rebalance 
to Asia where we face some medium and long-term risks to our national 
security.
    Admiral Locklear has said that due to budget setbacks, the ability 
of the services to provide air coverage and maritime coverage of the 
type we have traditionally needed in the Asia Pacific for crisis 
response has not been available to the level that he considers 
``acceptable risk.''
    Under sequestration, what risks might the Air Force be forced to 
assume in the Asia-Pacific region and how could this affect your force 
posture in the region?
    Answer. Sequestration negatively impacts force posture decisions 
across the globe, including the Asia-Pacific region. Budget Control Act 
or sequestration-level funding would reduce the availability of ready 
forces to meet combatant commander requirements, augment host nation 
defense capabilities, and react to requests for humanitarian assistance 
and disaster relief. The Air Force's reduced capability, capacity, and 
readiness due to sequestration would increase risk to mission and 
prematurely shift the burden of maintaining security and stability in 
the Asia-Pacific region to our allies and partners, further eroding 
their confidence in the U.S. commitment to the Asia-Pacific region.
    The Air Force fully supports funding as requested in the 
President's Budget. A return to BCA/sequestration would have enormous 
negative ramifications on readiness, people, and modernization. We 
would be happy to discuss those impacts in additional detail, if that 
would be helpful.
                                 ______
                                 
            Questions Submitted to General Mark A. Welsh III
              Questions Submitted by Senator Thad Cochran
                        f-15 radar modernization
    Question. General Welsh, we have previously discussed the need to 
focus on modernizing your air superiority fleet, including the F-15 
aircraft. It is my understanding that modernizing the F-15 fleet with 
the new Active Electronically Scanned Array radar provides improved 
performance and generates savings due to the high support costs 
associated with maintaining the current 25 year-old mechanically-
scanned radar.
    Could you describe the operational benefits the F-15 radar 
modernization program and tell us where the Air Force is in upgrading 
these radars in an effort to achieve savings? How do the fluctuations 
across the fiscal years in buys impact the program efficiencies and the 
industrial base?
    Answer. The two F-15 radar modernization programs, the F-15C APG-
63(V)3 and the F-15E APG-82(V)1, procure and install active 
electronically scanned array (AESA) radars. AESA radars provide longer 
range detection and tracking, improved accuracy, improved reliability, 
increased inherent capabilities and, for aircraft with a ground attack 
mission, significant improvements in ground mapping and ground target 
detection. F-15E APG-82(V)1 installations are being accomplished at the 
three operational F-15E bases: Mountain Home AFB, ID; Seymour-Johnson 
AFB, NC; and RAF Lakenheath, UK. The locations were selected to 
minimize operational impact, and the phasing is based on the 
availability of suitable hangar space. Mountain Home AFB will be 
conducting modifications through fiscal year 2018, Seymour-Johnson AFB 
from fiscal year 2016 through fiscal year 2025, and RAF Lakenheath from 
fiscal year 2019 until fiscal year 2024.
    Active duty F-15C APG-63(V)3 installations are currently being 
performed at RAF Lakenheath for USAFE aircraft through fiscal year 
2016. Modifications will be performed at Nellis AFB, NV for all Nellis 
AFB and Eglin AFB, FL, based active aircraft through fiscal year 2018 
and at Kadena Air Base, JP, for PACAF aircraft from fiscal year 2018 
through fiscal year 2020. Contractor field teams are performing at 
these installations.
    Air National Guard (ANG) F-15C APG-63(V)3 installations are being 
performed at New Orleans, LA, through fiscal year 2019 by contractor 
field teams. Performing ANG installations at one location is expected 
to save funds by reducing set-up/shutdown costs and by reduced lodging 
and per diem expenditures.
    The currently programmed procurement profile may have minor impacts 
on program efficiencies, but is necessary as the Air Force balances the 
need to maintain and upgrade existing aircraft with the need to procure 
other, higher priority systems. These fluctuations do not impact the 
industrial base.
               a-10 divestiture and f-35 program impacts
    Question. General Welsh, last year the Congress opposed the action 
to retire the A-10 fleet but I understand the proposal is again in this 
year's budget request. However this year's budget request includes a 
re-phasing of retirements to better align with the introduction of the 
F-35 program. We were recently informed that the Pentagon's Office of 
Cost Assessment and Program Evaluation completed its analysis of this 
request. Could you provide us insight into that review and how the 
retirement impacts the F-35 program?
    Answer. The National Defense Authorization Act for fiscal year 2015 
(Public Law 113-291) directed an independent assessment by the Director 
of Cost Assessment and Program Evaluation (CAPE) regarding alternative 
ways to provide fighter maintenance manpower in fiscal year 2015. CAPE 
provided its report to the Secretary of Defense at the end of January, 
2015.
    CAPE's assessment confirmed that a limited supply of experienced 
fighter maintenance specialists is constraining both the readiness 
recovery of the fighter fleet and the fielding of the F-35A. In fact, 
the shortage of experienced enlisted personnel already has degraded 
fighter readiness and disrupted the original plans for manning F-35A 
squadrons. CAPE assessed eight alternatives for sourcing fighter 
maintenance personnel in fiscal year 2015 and found that many options 
were limited due to the immediate need for experienced personnel, not 
just additional billets.
    The planned early retirement of A-10 aircraft, which would allow 
experienced maintenance personnel to be distributed across the reduced 
fighter force, will yield the greatest number of experienced 
maintenance personnel to support the planned fielding schedule for the 
F-35A and reduce the strain on the fighter maintenance community. Other 
force management options are also being either considered or 
implemented to some degree, but they fail to provide the large numbers 
of experienced maintenance personnel required to support both the 
fielding of the F-35A and the fighter fleet at its current size.
                           kc-135 simulators
    Question. General Welsh, it is my understanding that the Air Force, 
Air Mobility Command (AMC) will soon publish the results of a Business 
Case Analysis on the placement of excess KC-135 simulators, which help 
ensure our aerial refueling pilots and boom operators are properly 
trained in a cost-effective manner. Can you discuss the criteria used 
to analyze which bases are best suited to immediately house the 
available simulators to ensure that current pilot training requirements 
are fulfilled and that it is done in the most cost effective manner? 
When do you expect the results of this analysis will be released?
    Answer. The business case analysis (BCA) for the KC-135 simulators 
includes both recurring (e.g. operations, maintenance, device 
modification, courseware maintenance, travel, per-diem, and flying 
hours) and non-recurring (e.g. new construction or minor facility 
modifications) criteria. A review of the analysis was just completed 
and is now with AMC headquarters for action. We expect the final 
product to be ready for publication by the end of this summer. We will 
be happy to brief you and your staff in person on the results and 
answer any questions you may have.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                      afcent commander to shaw afb
    Question. In April 2014, we discussed the importance of the 
eventual return of the USAF 3-star (AFCENT) Commander to Shaw AFB. 
While I understand that the current situation in the Middle East does 
not support his return in CY15, can you tell me when you think you will 
be in a position to better estimate when the billet will return to Shaw 
AFB?
    Answer. As you point out, return of the U.S. Air Forces Central 
Command (AFCENT) commander to Shaw Air Force Base must be based on the 
situation in the U. S. Central Command (CENTCOM) area of responsibility 
(AOR). Given the prevailing conditions in the region, we do not 
anticipate relocation in the foreseeable future. However, as with other 
key force structure decisions, we will continue to evaluate the 
relative utility of having this commander forward versus in garrison 
and will make adjustments as needed.
    To an even greater extent than in 2014, the changing security 
environment across the CENTCOM AOR necessitates a force posture to 
quickly respond to current and emerging situations. We continually 
assess the situation to achieve a balance between risk mitigation, 
cost, and the effectiveness of forward deployed assets--to include 
location of the AFCENT commander. As issues within Iraq, Syria, 
Afghanistan and other locations in the region evolve, we will be able 
to assess the future positioning of the AFCENT commander.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
                              asia-pacific
    Question. I am concerned about the Air Force's commitment to the 
Asia-Pacific rebalance. A case and point concerns its refueling 
capability in the Pacific theatre. We have 12 KC-135 refueling tankers 
permanently assigned to Joint Base Pearl-Harbor Hickam to support 
PACOM's and PACAF's theatre requirements. Obviously, we cannot get into 
those requirements in an unclassified session, but they are significant 
and I would bet that they are not shrinking.
    Yet despite those requirements, your budget request proposes to 
reassign four of those KC-135 tankers from Hawaii and move them back to 
CONUS. That request essentially ignores the business case analysis that 
Congress directed the Air Force to complete in last year's NDAA before 
it can move those aircraft. It was Congress' hope that that business 
case analysis would, at least in part, inform the Air Force's decision 
about the potential tradeoffs.
    Could you please offer an explanation for why, given the existing 
and likely future requirements for air refueling capability in the 
Asia-Pacific theatre, the Air Force is moving forward with plans to 
remove refueling capability from the region?
    Answer. Our analysis determined that the change in force structure 
at Joint Base Pearl Harbor-Hickam has no operational impact on 
providing air refueling capability in the Asia-Pacific theatre. A net 
decrease in availability of one Pacific Air Forces-based tanker per day 
does not necessarily equate to a loss of air refueling capability. U.S. 
Transportation Command will remain fully capable of delivering air 
refueling capability to the region as necessary.
    Question. I am concerned about the Air Force's commitment to the 
Asia-Pacific rebalance. A case and point concerns its refueling 
capability in the Pacific theatre. We have 12 KC-135 refueling tankers 
permanently assigned to Joint Base Pearl-Harbor Hickam to support 
PACOM's and PACAF's theatre requirements. Obviously, we cannot get into 
those requirements in an unclassified session, but they are significant 
and I would bet that they are not shrinking.
    Yet despite those requirements, your budget request proposes to 
reassign four of those KC-135 tankers from Hawaii and move them back to 
CONUS. That request essentially ignores the business case analysis that 
Congress directed the Air Force to complete in last year's NDAA before 
it can move those aircraft. It was Congress' hope that that business 
case analysis would, at least in part, inform the Air Force's decision 
about the potential tradeoffs.
    Are you concerned at all that removing KC-135 tankers from the 
theater will constrain the Air Force's ability to providing tanker 
support to PACOM's area of responsibility?
    Answer. No. Although this is a net decrease in Pacific Air Forces-
based tankers, U.S. Transportation Command will remain fully capable of 
delivering required forces and capacity to the region.
    Question. I am concerned about the Air Force's commitment to the 
Asia-Pacific rebalance. A case and point concerns its refueling 
capability in the Pacific theatre. We have 12 KC-135 refueling tankers 
permanently assigned to Joint Base Pearl-Harbor Hickam to support 
PACOM's and PACAF's theatre requirements. Obviously, we cannot get into 
those requirements in an unclassified session, but they are significant 
and I would bet that they are not shrinking.
    Yet despite those requirements, your budget request proposes to 
reassign four of those KC-135 tankers from Hawaii and move them back to 
CONUS. That request essentially ignores the business case analysis that 
Congress directed the Air Force to complete in last year's NDAA before 
it can move those aircraft. It was Congress' hope that that business 
case analysis would, at least in part, inform the Air Force's decision 
about the potential tradeoffs.
    Your strategy should ultimately drive decisionmaking, but the 
budget plays a role in execution so it has to be a consideration. 
Considering that, to what extent will you take into account the 
business case analysis and reevaluate your decision regarding the 
reassignment of KC-135s?
    Answer. The Air Force conducted a cost benefit analysis of 
transferring the four Joint Base Pearl Harbor-Hickam KC-135s prior to 
including the movement in the fiscal year 2015 President's Budget 
request. The 2015 National Defense Authorization Act directed report is 
in coordination and outlines the factors, risks, and savings associated 
with the decision. We expect the report will be delivered by the end of 
June, 2015, to help inform the fiscal year 2016 President's Budget 
enactment.

                          SUBCOMMITTEE RECESS

    Senator Cochran. The Defense Subcommittee will reconvene on 
Wednesday, March 4, at 10:30 a.m. to receive testimony from the 
United States Navy and Marine Corps.
    The subcommittee stands in recess.
    [Whereupon, at 12:04 p.m., Wednesday, February 25, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, March 4.]
</pre></body></html>
